<html>
<title> - OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE BATON ROUGE FLOOD DISASTER: PART II</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 
                  BATON ROUGE FLOOD DISASTER: PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 5, 2017

                               __________

                           Serial No. 115-31

                               __________

Printed for the use of the Committee on Oversight and Government Reform








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]














         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-910 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                            
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                    William McKenna, General Counsel
                        Michael Howell, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2017....................................     1

                               WITNESSES

The Hon. John Bel Edwards, Governor of Louisiana
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Robert J. Fenton, Jr., Acting Administrator, Federal 
  Emergency Management Agency
    Oral Statement...............................................    47
    Written Statement............................................    49
Rear Admiral David Boone, USN, Retired
    Oral Statement...............................................    57
    Written Statement............................................    59
Mr. Mark Harrell, Emergency Coordinator, Livingston Parish, 
  Louisiana
    Oral Statement...............................................    63
    Written Statement............................................    65

                                APPENDIX

Letter of January 18, 2017, from FEMA to CB&I Federal Services, 
  submitted by Mr. Chaffetz......................................   116
February 23, 2017, The Advocate ``Blind Baton Rouge Man Baked to 
  Death in a FEMA Trailer,'' submitted by Mr. Chaffetz...........   118
Letter of February 14, 2017, from the Department of Housing and 
  Urban Development to the State of Louisiana, submitted by Mr. 
  Cummings.......................................................   121
The Hon. Junior Shelton, Mayor of Central, Louisiana, Statement 
  for the Record.................................................   123

 
OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 
                  BATON ROUGE FLOOD DISASTER: PART II

                              ----------                              


                        Wednesday, April 5, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:31 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Jordan, Amash, Meadows, 
DeSantis, Ross, Walker, Blum, Hice, Grothman, Hurd, Palmer, 
Mitchell, Cummings, Maloney, Lynch, Plaskett, Demings, 
Krishnamoorthi, Welch, Cartwright, and DeSaulnier.
    Also Present: Representatives Graves, Johnson, and 
Richmond.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    The chair notes the presence of our colleagues from 
Louisiana and who are also joining us here, and we appreciate 
the interest in this topic.
    I'd like to ask unanimous consent that Garret Graves, Mike 
Johnson, and Cedric Richmond be allowed to fully participate in 
today's hearing.
    Without objection, so ordered.
    We had one of the worst natural disasters in this country 
happen again in Louisiana. On August 11, 2016, a no-name storm 
dropped some 7.1 trillion gallons of rain on the Baton Rouge 
and Livingston Parish area. Some areas received up to 31 inches 
of rainfall in just 2 days. That is so unbelievable. It's hard 
to imagine how much rain was falling in such a short amount of 
time. The resulting flood was one of the worst disasters in our 
history, causing over $8 billion of damage and claiming 13 
lives.
    The first responders, friends, and neighbors, including 
Representative Garret Graves, who took his own paddleboard out 
and coordinated to get people help, rescued more than 15,000 
people from the floodwaters.
    And, again, we appreciate our representatives from 
Louisiana being here and participating in this hearing.
    There were some 150,000 local residents who applied for 
assistance. Seven months later, estimates indicate that more 
than 45,000 flood victims remain displaced and don't yet live 
at a home. Another 600 families are still living in a hotel.
    You know, this is one of the things that my colleague here 
to my right, Elijah Cummings, talks a lot about. We keep saying 
we're ready, we keep appropriating the money, and they're flat 
out not ready to deal with it.
    Congress responded to this by appropriating $1.6 billion to 
be administered by the State of Louisiana, on top of billions 
available through other programs. The committee sponsored the 
first congressional delegation to the affected areas in the 
weeks after the floods and held a hearing on September 9 of 
2016.
    The committee then returned to the area in February. 
Additionally, we have reviewed more than 80,000 pages of 
documents from the Federal Emergency Management Agency, or 
FEMA, and through our field work and document review, we 
discovered significant failures at FEMA.
    Among the most egregious examples is FEMA's failure to 
deploy in a timely manner. These MHUs, these--again, these 
mobile housing units, are a housing option of last resort for 
flood victims. At the time of the September hearing, FEMA had 
placed only one person in an MHU, despite having 70 MHUs 
locally and sitting on a lot.
    I want to show you this graph here. Now, remember, this 
disaster happened in August. This is the deployment of the 
mobile housing units. Twenty-two are out there in September. 
October, 593, but you really don't ramp up until February. 
February. This thing happened in August.
    You can take that slide down.
    These are people who are in desperate need of housing and 
simply had to wait too long. In fact, we still have people that 
are waiting. There are still people waiting in line. It's 
April, and they're still waiting.
    Unfortunately, the problems with the mobile housing units 
are not limited to the abysmal placement or pace of deployment. 
Let me show you what this--I want to put up this slide here, if 
I could.
    This is from Clayton Homes. Okay? This is--we went online, 
staff did good work. It's kind of hard to see there, but you 
can go online right now, in Louisiana, and that top one, it's 
called the Elation, you can--it says its in stock. They can buy 
it between $26,000 and $45,000, right now. You can just push 
the button and order it. And when we talked to the 
representatives from Clayton Homes this morning, in Gonzales, 
Louisiana, near Baton Rouge, they quoted $3,600 to $10,000 for 
delivery and installation, and they can start today.
    The Federal Government pays $150,000 for these units, and 
you can go online and buy the nicest one they have for 45 
grand, and for another 10 you can get it there. $100,000 
premium we're paying, and they can't get them to the people 
that are affected for months and months and months on end? Go 
online, for goodness' sake, and you can do a better job and 
save the taxpayers, literally, millions of dollars.
    It's so frustrating to see these people suffer and hear 
their horror stories.
    And, by the way, with FEMA, when they purchased these 
things at $150,000 a pop, we found a pattern of serious 
maintenance issues with them. Electrical issues, clogs, leaks, 
plumbing problems, doors that would not shut or lock, fires, 
and malfunctioning fire suppression systems, HVAC systems that 
were too hot, too cold, didn't work at all, unusable 
furnishings. On average, average, each unit had more than 1.3 
problems with it. Most concerning is the HVAC and thermostat 
issue.
    In October of 2016, a faulty MHU overheated and killed an 
84-year-old man. In fact, let's put up the slide from The 
Advocate, who had this story that ran. He was baked to death in 
a FEMA trailer. And we have spent considerable time looking at 
the suffering that this man went through and ultimately lost 
his life. FEMA falsely told our committee staff, who was there 
on the ground at an in-person briefing, there had been no 
deaths due to faulty MHUs or any efforts to replace a pattern 
of defective parts. That was absolutely not true.
    Shortly after the man's gruesome death, FEMA ordered a 
contractor, Chicago Bridge and Iron Company, to replace 
approximately 1,500 thermostats. Sadly, in the midst of 
recovery efforts, FEMA's priorities were clearly misplaced.
    In an October 31, 2016, email uncovered by the committee, a 
FEMA official writes, quote, ``We have no way to predict what 
this news will do to our operation and how the congressional 
office will use this prior to election,'' end quote.
    This is not the first time FEMA has placed its own image 
above aiding citizens in need. Ten years ago, the committee 
held a hearing on formaldehyde levels in trailers deployed by 
FEMA in Hurricane Katrina. Then Ranking Member Tom Davis 
stated, quote, ``FEMA's concerns were a legal liability in 
public relations, not health and human services,'' end quote. 
It doesn't seem as if anything has changed since Hurricane 
Katrina.
    FEMA is repeating many of the same mistakes they should 
have learned from Katrina. Additionally, we identified 
pervasive waste of FEMA funded State-run Shelter At Home 
Program. This program allows for $15,000 in temporary repairs 
to a home so flood--so flood victims can remain in their homes 
while finishing repairs. So the contractor gets $15,000, come 
in and do some temporary repairs, then they can stay in their 
home. The biggest beneficiary of this program were the 
contractors who were allowed to make repairs that cost well 
beyond their value. The State reimbursed contractors for 
repairs based off negotiated and--I don't know. Talk about bad 
negotiators--off negotiated itemized on the list. So let's look 
at what we're paying for for basic items.
    We went to Amazon.com, we figured out people know what that 
is. You know, pay less than $100 bucks, you can get a Prime 
membership and also watch some videos. These are what Shelter 
at Home Program was paying. Okay? For the two-burner hot plate, 
$120. You can go on Amazon, buy it for $22 bucks. Microwaves, 
$133. You see a long list. The AC unit, $985; you can buy them 
for $249. And guess what? Amazon will deliver it to your door 
for free shipping. And if Amazon doesn't, my guess is every 
retailer that's in Louisiana would also do it to help out their 
friends in need right next door.
    We're paying ridiculous prices. We're paying $150,000 a 
unit, and we can't get it to the people.
    Contractors were also able to charge up to $1,500 to 
quickly inspect HVAC, electrical, and plumbing systems. The 
committee has questions, though, about the quality and 
workmanship of these temporary repairs. We met with an elderly 
woman who's replacement sink was attached to her drywall 
instead of into the studs. Let me show you what this looks 
like. This is after the repairs.
    If you can put up that slide.
    As she puts it up, the sink fell on her foot resulting in a 
painful and expensive hospital visit. These are far from the 
only problems we've had with the recovery.
    I don't know if we have that slide there, but this--
basically, the sink was installed, and it just fell right out 
of the wall. And if you just see the surrounding area and what 
it was looking like, it was absolutely just abysmal, abysmal 
conditions.
    We're concerned about the delays and the State's selection 
of a contractor to manage the $1.6 billion Congress 
appropriated in September. So the disaster happens. Congress 
appropriates money very pretty swiftly, and reports indicate 
that the State bungled the initial award and then restarted the 
process 2 weeks ago. It's April 2017. This happened in August, 
and they just restarted the process. So it's con the 
bureaucracy instead of getting it to the victims.
    Furthermore, the estimates are that the contractor who gets 
awarded this is going to get $250 million to administer this. 
Now, there's costs. I'm not saying there's no cost. But you've 
got 600 families that are still in hotels. I can't see a single 
thing that went right with this, except one thing: The men and 
women, the families there in Louisiana, they took care of 
themselves. They helped neighbor to neighbor. They got out 
there and did what it took to take care of it.
    But it's an embarrassment for the Federal Government, FEMA, 
and those involved at the State level too that we are here in 
April, and they still haven't solved this problem. And we've 
got real people suffering, and that's--that's why we're having 
this hearing today.
    So I'd now like to recognize the ranking member, Mr. 
Cummings, for his statement.
    Mr. Cummings. Mr. Chairman, I want to thank you for holding 
this hearing.
    I've often said that--and you alluded to this--when I think 
back at Katrina, it is something that I've talked about many, 
many times, and that was the situation where people who kept 
saying when the rubber meets the road, everything is going to 
be fine. And when it came time for the rubber to meet the road, 
we discovered there was no road.
    The torrential rains that hit Louisiana last August have 
been described as once-in-1,000-year event. Some areas received 
as much as 2 feet of water and rose to record levels. The harm 
inflicted was vast, flooding more than 60,000 homes and forcing 
thousands of families to flee.
    Today's hearing is an important opportunity to make sure 
that we're doing everything possible to help the victims of 
this historic flood. Our work has been bipartisan. And not only 
do I appreciate that immensely, but I believe it makes our 
committee more effective and more efficient.
    After Hurricane Katrina, one of the key lessons we learned, 
that there were some contractors involved in the recovery 
effort were corrupt. I said it. Some of them were corrupt. Folk 
had their hands out in the matter--in the midst of a disaster 
because they wanted to take advantage of the moment. They did 
not hesitate to exploit the disaster and billed the American 
taxpayers, and they caused additional suffering to the 
residents of the region. In other words, there was pain layered 
on top of pain.
    In response, we resolved to hold contractors to account, 
and we pressed FEMA and other agencies to conduct more rigorous 
oversight of their contractors. This is no doubt that things 
have improved, no doubt about it, since Hurricane Katrina, but 
I continue to have serious concerns about FEMA's reliance and 
dependence on contractors, as well as its ability to hold those 
contractors accountable.
    Let me highlight one example. I think the chairman talked 
about this briefly. Last October, an 84-year-old blind veteran, 
Everett Wilson, was found dead in a manufactured housing unit 
that he was provided after the floods. Apparently, there was a 
malfunction in his thermostat, so the heat kept pumping and 
pumping and pumping. When Mr. Wilson was found dead, it was 130 
degrees in his unit.
    As part of our investigation, our staff spoke to Mr. 
Wilson's caretaker. She told us that the thermostat was 
malfunctioning as soon as Mr. Wilson moved into the unit. She 
said she called repeatedly to get help, and that the 
maintenance repairman came out to his unit. However, she said 
he claimed he was not qualified to fix the heating and air 
conditioning system, so he left. And nobody else, apparently, 
returned after that.
    However, we've obtained internal documents showing that the 
company has a terrible record of documenting its maintenance 
calls and responding to maintenance requests. Approximately 1 
month before Mr. Wilson's death, a FEMA official warned CB&I, 
and I quote, ``I have seen at least 20 problems with your 
subs,'' end of quote. He wrote, quote, ``Please drop the hammer 
on these guys,'' end of quote.
    In addition, our staff reviewed the company's maintenance 
records in the weeks leading up to Mr. Wilson's death, and they 
showed that CB&I received at least 25 calls from other 
residents about heating and air conditioning problems in their 
units. These problems did not get fixed before Mr. Wilson's 
death, and they did not get fixed in the months afterwards. 
When the rubber meets the road, no road.
    For example, on January 4, a FEMA acquisitions quality 
assurance specialist sent an email to a FEMA Federal 
coordinating officer expressing concern that in December alone, 
CB&I received 1,980 maintenance calls, and I quote, ``The 
contractor only completed 198 of those, thus, 90 percent not 
completed,'' end of quote. Rubber meet the road, no road. That 
is 9 out of 10 calls the company failed to address.
    CB and CI--CB&I also missed or failed to complete 40 
percent of its monthly inspections of these manufactured 
housing units. According to the same email, quote, ``Repeat 
caller''--and I quote, ``Repeat caller complaints that go 
without maintenance attention are numerous,'' end of quote.
    So you had Mr. Wilson, who basically became collateral 
damage. That's right. I worry that more and more people in our 
country, because there is a lack of empathy, a lack of 
professionalism, a lack of responsibility, a lack of decency, 
allow others of us to become collateral damage.
    So on January 16, a Federal coordinating officer at FEMA 
emailed his colleague warning that, and I quote, ``CB&I's 
maintenance subcontractor continues to struggle,'' end of 
quote. And that the company was providing, and I quote, 
``substandard performance,'' end of quote.
    Today's--2 days later, on January 18, FEMA sent a letter of 
concern to CB&I expressing, and I quote, ``concerns about your 
current trend of performance.'' The letter highlighted problems 
with, quote, ``completing and reporting of backlog maintenance 
work orders and nonresponse to repeat calls from FEMA 
applicants.'' So I'm assuming somebody is getting some money, 
but nobody's performing the work.
    The documents we have obtained show that this contractor 
has a terrible, terrible record, and this demonstrates why 
aggressive oversight is so critical and so crucial.
    Finally, Governor Edwards, I want to thank you for 
testifying here a second time, as well as for the testimony 
that you provided about the value of the Shelter at Home 
Program, which temporarily repaired more than 10,000 homes and 
saved countless neighborhoods from abandonment. This vital 
program can be improved, and I believe you would agree with 
that, based on the experiences of Baton Rouge. And we look 
forward to hearing from you about how to make productive 
changes.
    I want to thank all of our other witnesses for being here 
today.
    Again, Mr. Chairman, I thank you for the bipartisan effort. 
And with that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I also ask unanimous consent that the letter of concern 
issued by FEMA as highlighted in your opening statement as well 
as the article from The Advocate that I highlighted in my 
statement, that both of these items be made part of the record.
    Without objection, so ordered.
    Chairman Chaffetz. We will hold the record open for 5 
legislative days for any members who would like to submit a 
written statement.
    But now, we would like to welcome our witnesses. We're very 
pleased for the cooperation and the accessibility for the 
Honorable John Bel Edwards, the Governor of the great State of 
Louisiana, for being here again.
    We thank you, sir, for being here.
    We also have Mr. Robert Fenton, Jr., acting administrator 
for the Federal Emergency Management Agency, often referred to 
as FEMA.
    We have Rear Admiral David Boone, president for the Chicago 
Bridge & Iron Federal Services.
    We thank you, sir, for your service, but we also thank you 
for being here today.
    And we have Mr. Mark Harrell, emergency coordinator for 
Livingston Parish, Louisiana. Somebody who is truly on the 
front lines.
    And, sir, we thank you for all of your efforts, and we 
thank you for your candid testimony here today. So I want to 
proactively thank you for being here as well.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you'll please all rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for proper discussion, we would 
appreciate it if you would limit your oral testimony to 5 
minutes. Your entire written record and any supplemental items 
will be made part of the congressional record as well.
    But if--we have lights there. As my colleague, Trey Gowdy, 
likes to say, it's green, go; when it's yellow, speed up; and 
when it's red, you've got to stop. So if you could just make 
sure you move that microphone nice and close and hit the button 
as you go along, we'd appreciate it.
    Governor, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

               STATEMENT OF HON. JOHN BEL EDWARDS

    Governor Edwards. Chairman Chaffetz, Ranking Member 
Cummings, members of the committee, good morning and thank you 
for the opportunity to be here today.
    Since I was last here testifying before this committee, the 
Louisiana congressional delegation and I discussed with you and 
your colleagues, as well as the Obama and Trump 
administrations, what it would take to give the people of 
Louisiana a full recovery. These conversations have been 
extremely productive.
    First, I want to thank you for the $1.6 billion 
appropriated thus far, and I'm grateful for the time this 
committee staff has taken to visit Louisiana to better 
understand the challenges we are facing. I'm also grateful to 
be invited here to discuss how to improve and speed up the way 
the Federal Government responds to natural disasters.
    The historic March and August floods were the fourth most 
costly flood event in United States history, with over 112,000 
of homes with FEMA-verified loss. Understanding the scale of 
the destruction is critical to any conversation about recovery 
and where we go from here. Just as important is an 
understanding of how Federal regulations have hindered our 
ability to get the assistance we need for the people of 
Louisiana. Prior to and throughout the immediate response of 
the 2016 floods, FEMA was a very good partner, but the 
transition from response to recovery is where challenges arose.
    Since I took office as Governor last year, 57 of 
Louisiana's 64 parishes have received Federal disaster 
declarations, home to 85 percent of the State's population. The 
waters may have receded, but their mark remains in living rooms 
and schools and shops around the State. The State has worked 
around the clock to act as quickly as possible within the 
parameters set by Federal regulations, and yet we know there 
are still improvements we can all make, which is why we are 
here today, as there are lessons to be learned from every 
disaster.
    You have specifically asked me to talk to you about Shelter 
at Home. After Hurricane Katrina in 2005, we saw entire 
communities turn into ghost towns. St. Bernard Parish, a suburb 
of New Orleans, lost more than half of its population. Families 
were broken apart, businesses closed, and many students and 
teachers never returned to their classrooms. After last year's 
flooding, it was important to us not to let that happen again. 
However, many of the challenges that plagued the recovery from 
Hurricane Katrina still cause problems today.
    We looked to programs used around the country and lessons 
learned from other devastating events, such as Superstorm 
Sandy, with the objective of holding communities together, like 
Livingston Parish. We studied New York's version of FEMA's STEP 
program. We decided that a restructuring of that program was 
our best opportunity to prevent repeating what happened in the 
aftermath of Hurricane Katrina.
    Our version of STEP known as the Shelter at Home Program 
provided a cost effective temporary housing option, given that 
hotel, motel, and rental stock was insufficient even before the 
storm and was greatly reduced due to flood damage, and also 
because manufactured housing units were not readily available. 
The purpose of Shelter at Home was to create a safe, secure, 
and habitable home with a minimum of one operational bathroom, 
running water, a functioning kitchen, and working heating, air, 
hot water heater and electrical outlets among the list of 62 
repair items, while homeowners made long-term permanent 
repairs.
    Without the Shelter at Home Program, we would have been 
forced to put thousands of families in hotels, mostly outside 
of their home towns and even outside the State, at a much 
greater cost, roughly $40 million per month for the 11,000 
families who used Shelter at Home.
    However, we encountered numerous challenges within the 
Federal process that limited the assistance we were able to 
provide homeowners. For instance, there are certain repairs 
that make a house look and feel like a home, such as insulation 
and sheetrock on the exterior walls that were not permitted 
under Federal guidelines. While we did request to expand the 
program and include these repairs, we were denied.
    Expectations, understandably, were often far above the FEMA 
restrictions we were bound by, and early on we struggled to 
communicate that effectively to homeowners. Knowing that the 
repairs were often austere and primarily of a temporary nature, 
we began carefully outlining to homeowners, before the work 
began, what the scope of work would include.
    Simply put, TSA and MHUs don't fill the need. STEP is too 
limited, but you can help. For example, consider carving out an 
exception to the duplication of benefits language in Title 42 
and form an incorporating step into FEMA regulations under the 
public assistance program, category B. This will allow States 
to have prestorm contracts in place so that implementation time 
and program costs are reduced greatly. But this is just one 
example. There are numerous adjustments both on the regulatory 
side and within statute that would give States the flexibility 
to provide a more robust and timely recovery for our citizens.
    I look forward to continuing with this conversation today, 
as I know we have a shared goal of expediting and improving the 
overall recovery process.
    Thank you.
    [Prepared statement of Governor Edwards follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    
    Chairman Chaffetz. Thanks, Governor.
    Mr. Fenton, you are now recognized for 5 minutes.

               STATEMENT OF ROBERT J. FENTON, JR.

    Mr. Fenton. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. I'm Bob Fenton, acting 
administrator of FEMA. Thank you for inviting me here today to 
provide an update on our Louisiana recovery operations.
    I began my career at FEMA in 1996, and since then have been 
deployed to more than 50 disasters across the country, some of 
the largest in the last two decades, including the World Trade 
Center on 9/11, Hurricane Katrina in Mississippi, and Hurricane 
Sandy in New York. During my 20 years in this business, I have 
learned many truths about disasters and helping survivors 
during and following their worst days.
    First, every disaster is different. They have different 
causes, different consequences, different survivors, different 
communities, each with varying levels of resiliency that bring 
their own unique requirements and challenges.
    Second, in response to disasters, we can be cost effective, 
precise, or fast, but we can't be all three. Time is a 
commodity that I can't replace, but at FEMA we strive to 
support survivors as quickly and effectively as possible, and 
are constantly seeking better, more effective ways to serve.
    Serving the people of the communities of the United States 
is what motivates me, the men and women at FEMA, the dedicated 
professionals working in emergency management across the 
country.
    The historic flooding in Louisiana in August of 2016 
dispersed tens of thousands of survivors from their homes. Even 
though the waters receded, many survivors found their homes 
completely destroyed and themselves in need of shelter while 
their communities are rebuilt.
    FEMA remains committed to Louisiana recovery. Since August, 
we have approved more than $764 million in individual 
assistance, obligated more than $325 million of an estimated 
$677 million in public assistance. FEMA provided the needed 
housing to roughly 90 percent of the survivors within 6 months. 
Communities recover more quickly and completely when survivors 
find their sense of normalcy post disaster, when kids go to 
school with their friends, families attend their regular 
church, and people return to work. By keeping survivors close 
to their communities, we can help them get back to their lives 
more quickly and the community recover fully.
    When a disaster devastates the entire housing market, 
including rental and hotel properties, finding housing options 
close to survivors' homes presents a challenge. Survivors' 
housing needs are met through a combination of insurance, loans 
from SBA, and rental or repair systems from FEMA. FEMA's 
authorities alone will not make survivors whole. And FEMA 
assistance by itself cannot rebuild a family's home as it was. 
Our authorities do allow us to make minimal repairs through 
programs like Shelter at Home to get survivors back into their 
own home or provide temporary housing through hotels, rental 
properties, or manufactured home units, also called MHUs.
    In providing temporary housing, our preference is to use 
existing housing stock, which is, more often than not, the most 
cost effective and efficient way to get people into temporary 
housing. However, there are occasions when a survivor needs are 
best met with one of our MHUs. In disasters, a large number of 
displaced persons and limited availability of rental 
properties, MHUs fill a critical gap. When MHUs are used, FEMA 
has an obligation to ensure they are safe and durable. We build 
MHUs to HUD standards to be deployable to any environment in 
the United States. We also coordinate with local governments to 
meet their codes and ordinances and to insure that utilities 
connect. And finally, we provide a 24/7 maintenance line to 
survivors at move-in and are available to address any concerns 
they have about their MHU. We inspect them monthly to ensure 
they are all well maintained.
    However, tragically, in October, Mr. Everett Wilson, one of 
our disaster survivors, passed a way in a unit we provided. 
FEMA takes the loss of Mr. Wilson seriously, and I take it 
personally. I have met with the State director and the 
Louisiana Governor several times. My first trip after assuming 
this role was to visit Baton Rouge to see for myself the status 
of our recovery mission.
    As I said when we began, in disaster response, we can't be 
cost effective, precise, and fast, but that doesn't mean we 
don't try. Since assuming this role, I have directed our staff 
to look at new, out-of-the-box solutions to improving our 
housing program.
    At the end of February, we hosted a housing summit to 
identify and evaluate alternative options, and based on their 
recommendations, I instructed them to work with academic 
institutions and industry to identify new innovative solutions 
to disaster housing. Providing housing for survivors after a 
disaster is always challenging, but we work every day to find 
better, more effective ways to accomplish our vital mission and 
to provide a consistent high level of service to all survivors.
    I look forward to working with Congress as we seek better 
ways to serve the needs of disaster survivors, and I am happy 
to take any questions you may have at this time.
    [Prepared statement of Mr. Fenton follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Chaffetz. Thank you.
    Mr. Boone, you are now recognized for 5 minutes.

             STATEMENT OF REAR ADMIRAL DAVID BOONE

    Admiral Boone. Chairman Chaffetz, Ranking Member Cummings, 
Congressman Graves, and members of the committee, I appreciate 
the invitation to be with you today to discuss CB&I Federal 
Services' role in the Baton Rouge flood disaster recovery. I 
ask that my full statement be made part of the record.
    My name is David Boone, and I'm PRESIDENT of CB&I Federal 
Services. Prior to joining CB&I in December of 2013, I served 
for 30 years in the United States Navy. I was a civil engineer 
corps officer and a Seabee. Those 30 years provided me with an 
exceedingly rich source of perspective. My transition from a 
military officer to president of this company has turned out to 
be a very natural continuation of my career as both demand the 
highest levels of dedication to the American taxpayer.
    During my Navy career, I participated in many disaster 
response missions. When we received this task order from FEMA, 
I was very anxious and determined for our organization to 
respond well in performing its mission in relieving the victims 
from the misery of the disaster. We provided a focus of 
resources and leadership to ensure success of our mission.
    I believe our team was highly successful in this endeavor. 
We serve the U.S. Government. We serve those who the U.S. 
Government serves. And in this particular case, we faithfully 
assisted and continue to assist victims of one of the worst 
flood events in the history of our country. We are proud of our 
work, but make no mistake, this is difficult work, and at times 
it's heartbreaking work.
    Our company has provided disaster relief assistance to FEMA 
since 2005, and we have successfully completed over 100 task 
orders. After Hurricane Katrina and Rita, we dewatered New 
Orleans, patched roofs, and set up many thousands of housing 
units for citizens who had nowhere to live.
    On May 8, 2009, FEMA awarded CB&I Federal Services a 
contract to provide disaster recovery services on task orders 
to be issued as needed over the life of the contract. CB&I was 
evaluated and awarded as the best value of all the competing 
contractors. That, in turn, resulted in FEMA assigning CB&I 
Federal Services to the southeast region, which is the most 
disaster-prone region in the United States. CB&I was determined 
by FEMA to be the most qualified emergency response contractor, 
and its rates were determined to be fair and reasonable to the 
U.S. Government.
    Baton Rouge is not just a job site for CB&I Federal 
Services. It's our home as well. We have several offices--
office locations in the Baton Rouge area. We have employees who 
have lost everything. We are members of this community. For 
much of our staff, this is home, and it is personal to us. We 
are not just a contractor that came to this area in response to 
the flood. Many of our employees live and work in Baton Rouge 
and personally suffered as a result of the flooding. I 
personally walked those neighborhoods. I saw the piled up 
personal belongings. I held and cried with employees. This was 
personal to us.
    I'm also proud to say that many of our employees responded 
to help others as volunteers, and our company gave them the 
opportunity to continue working as volunteers. A number of our 
employees were part of what became known as the Cajun Navy, 
serving to rescue people with their personal watercraft. So 
when we knew that there was a potential for our company to 
receive this task order to do the best--to do this work, our 
employees were motivated to do the best possible job to make a 
difference and help those devastated by disaster. It amazed me 
that we had employees that lost everything back at work within 
days striving to help others get back on their feet and support 
others.
    I thank you, Chairman Chaffetz and Ranking Member Cummings, 
for the invitation to be here today. Currently, we have zero 
work in backlog related to installation under this task order. 
We have received only positive comments and glowing accolades 
from FEMA at all levels about our performance under this task.
    Congressman Graves, we will stay in your district until the 
job is done. We are your constituents, and together we will 
help our friends and neighbors get back on their feet.
    As I said at the outset of my testimony, I take the task of 
serving my fellow Americans very seriously, and I ensure that 
everyone who works for and with me does as well.
    I stand ready to answer your questions you may have. Thank 
you very much.
    [Prepared statement of Admiral Boone follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       Chairman Chaffetz. Thank you.
    Mr. Harrell, you're now recognized for 5 minutes.

                   STATEMENT OF MARK HARRELL

    Mr. Harrell. Thank you, Mr. Chairman, committee. I 
appreciate this. I would--I also want to thank you for 
recognizing Livingston Parish as being a part of this flood. I 
provided some inundation maps for you. Ninety-four percent of 
our folks suffered, 94 percent.
    I'd like to move on to information sharing. Constantly, we 
run into resistance with FEMA on the individual assistance 
side. Our council, our parish president, everyone, gets calls 
from our citizens wanting help because they can't get through 
to the hotline with FEMA. It's ridiculous. So when we try to 
follow through and help our citizens, we're constantly told, 
that's a Privacy Act. We cannot give you this information. What 
are we to do? I ask you to please look into this, make some 
changes. Every emergency manager in the country should have 
access to this information.
    Secondly, our hazard mitigation. It is one of the, I'm 
going to say, the best programs that FEMA has to offer. We're 
building safe rooms. We're doing everything with that. We're 
doing drainage. One thing that I faced a problem with for the 
last 12 years is trying to build a warehouse for our 
commodities to help our citizens. It was in there, and then in 
2009, it was taken out where we cannot build, do any new 
construction with hazard mitigation funding, unless it's a safe 
room. So I ask you to please look into that, see if we can 
change policy to where that can be offered again.
    Also, we would like the ability to use hazard mitigation 
funding for commodities. Let us buy our meals, ready to eat, 
water, couch, blankets, hygiene kits. That saves you from 
having to haul them all over the country to get them to us 
weeks later. So help us help ourselves.
    And I would like to point out right now, in 1 year's time, 
Livingston Parish is the only parish that had a Federal 
declaration three times. All three disasters, we're the only 
one. So you understand why we need to do some reform with FEMA. 
It's going to help everyone.
    At one time, the Federal coordinating officer, once he was 
appointed, could make decisions in the field. He could use some 
common-sense approach, change some policy, move forward with 
things. In the last 10 years, that has not happened. Everything 
must come from the Federal coordinating officer all the way 
back to Washington, DC be delayed for weeks and weeks or 
months, and then we still can't move forward with anything. So 
we could have made a lot of decisions in Baton Rouge at the 
joint field office had the Federal coordinating officer been 
allowed those opportunities.
    The MHU program, as you stated, is definitely flawed, and 
I'm going to leave it at that. There are other opportunities. 
There's other ways to do better with this. It's simply issue 
the State or issue the jurisdiction that's affected and declare 
it a block grant. Let them handle the housing. I mean, it's got 
to get much easier. As you stated, we can buy mobile homes 
local if we need to. There's all kinds of opportunities if you 
provide it to the locals and let us do it ourselves.
    First responder agencies throughout the country suffer from 
the fact that if a responding agency comes in to assist--and 
understand, Livingston Parish, Ascension, EBR, it was a war 
zone, just like it was during Katrina. We had first responders 
from across the country and the northern part of the State come 
in to help. We can't seem to get a project worksheet worked out 
to where we won't have to cover 100 percent of it. Just--and 
there's nothing prohibiting that, but we just need to look into 
this.
    Lastly, I would just like to say that I've met resistance 
on public assistance on our roads. And Mr. Cummings brought up 
how the roads were inundated with the homes earlier. Ninety-
nine percent of our roads was under water for 7 to 10 days. 
However, when we--excuse me--when we talked to FEMA about it, 
they say, we have nothing that we can help you on unless we can 
see the damage. I've provided you with some backup 
documentation that proves otherwise. I'm asking you to please 
help us get FEMA to respond to that. And it's not only a 
Livingston Parish issue. This is across the country. Everyone 
faces it.
    And then I'd like for you to look at something that 
happened after Katrina that helped the school systems, NFIP. 
And it's in my packet.
    Thank you for your time. I'm here to answer any questions.
    [Prepared statement of Mr. Harrell follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    Chairman Chaffetz. Thank you. Appreciate it.
    We'll now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Governor, how many did the--how much did the Shelter at 
Home Program cost?
    Governor Edwards. We haven't--I'm sorry. Sorry about that. 
We--Congressman, we have not closed out the program yet.
    Mr. Hice. How much did it cost so far?
    Governor Edwards. I think about $157 million. We're 
expecting $164-,$165 million by the time it closes out.
    Mr. Hice. All right. How much did you receive in Federal 
funds?
    Governor Edwards. For the Shelter at Home?
    Mr. Hice. Well, for the disaster as a whole.
    Governor Edwards. Well, we--well, it's hard to answer. The 
Shelter at Home funding is coming from FEMA with a cost share 
from the State.
    Mr. Hice. I think you mentioned it a while ago, 1.6 billion 
was approved.
    Governor Edwards. Yeah, the chairman mentioned that. That's 
for the CDBG piece. It's been approved. We have not received 
the funding yet.
    Mr. Hice. How much money has been distributed to those 
affected by the flood?
    Governor Edwards. Out of the CDBG? None.
    Mr. Hice. Okay. Let me--you did not call for an evacuation. 
Is that correct? When the report was coming the flood was on 
the way, what--did you call statewide an evacuation?
    Governor Edwards. I don't know that we called for a 
statewide evacuation, other than in those low-lying areas where 
we asked people to move before the roads became impassable.
    Mr. Hice. As I understand, the National Weather Service was 
predicting this was going to be a storm, the damage of which 
floods would go beyond that of 1983. Why would you not call an 
evacuation?
    Governor Edwards. Yeah. I'm not sure the National Weather 
Service said that in advance of the rain falling. And, in fact, 
this was not a storm that we would typically have in Louisiana 
where you have a tropical storm or a hurricane.
    Mr. Hice. From what I understand, the National Weather 
Service made that prediction. Well, let me put it this way: Did 
the State do everything that you could to prepare for the 
flood?
    Governor Edwards. I am convinced that we did a very good 
job, in fact, working with FEMA, as I said earlier, before and 
during and in the immediate aftermath of the storm in terms of 
the response. Yes, sir.
    Mr. Hice. So you would give yourself what kind of grade?
    Governor Edwards. A high grade. I mean, I don't--I don't 
think anything is ever perfect. And, certainly, we learned 
lessons, but I would give ourselves a B plus, something on 
that.
    Mr. Hice. A B plus with this kind of horrible outcome. That 
sounds like a very generous grade when there's--there's so much 
destruction.
    How many people are still--have permanently still been 
displaced from their homes?
    Governor Edwards. Well, I don't have the number for how 
many are permanently displaced from their homes in terms of not 
back in today, because there are multiple programs to--that 
provide relief for homeowners, including the National Flood 
Insurance Program. And I'm not sure where they are in terms of 
getting claims paid and homes repaired.
    We do know that there were 112,000 homes with FEMA-verified 
loss, and that's a very significant----
    Mr. Hice. But you don't know how many of those homes have 
been repaired or how many are back in their homes?
    Governor Edwards. I do not know across the board. I know 
that there are far too many homes that are not repaired, and we 
have too many people who are not living in their homes, which 
is--which is one of the reasons that I'm here today and 
continue to come back asking for additional assistance.
    Mr. Hice. Is it true that you were at a fundraiser in 
Colorado when the National Weather Service was calling for a 
flood in your home State?
    Governor Edwards. No, sir.
    Mr. Hice. It's not true?
    Governor Edwards. No, sir.
    Mr. Hice. Where were you?
    Governor Edwards. I was in Colorado at a Democratic 
Governors' Association conference.
    Mr. Hice. Okay. When did you return?
    Governor Edwards. That afternoon. The Friday afternoon. The 
same day the rain started.
    Mr. Hice. All right. Is it true that days following the 
flood, you told a media reporter that the State was not in need 
of Federal flood resources?
    Governor Edwards. I don't believe I would have said that. I 
would have said that we--there wasn't anything that the local 
governments were asking for that we were unable to provide.
    Mr. Hice. From what I understand, the comment was made that 
you did not need any Federal resources. I was wondering why you 
would make such a claim with such a devastating flood.
    Governor Edwards. Well, I think the--if I recall correctly, 
the conversation was around requesting the Federal disaster 
declaration. We were working with the regional coordinating 
officer from FEMA to determine the most appropriate time to 
request that declaration. And one of the things you have to 
certify with my signature is that the local governments are 
asking for assistance we are unable to provide. It wasn't until 
that was the case and I was able to make that certification 
that we requested the declaration, which we received very, very 
promptly.
    Mr. Hice. Well, Mr. Chairman, I appreciate it.
    But, Governor, with all due respect, it looks to me like 
one disaster led to another disaster from decisions coming from 
the State. I cannot imagine how you would give yourself a B 
plus in this.
    But with that, Mr. Chairman, I thank you, and I yield back.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize Mrs. Demings of Florida for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman, and also, 
thank you to our ranking member.
    Mr. Boone, I want to ask you about--or share with you an 
example of your company's unacceptable performance from 
January. As I described this almost unbelievable series of 
maintenance failures, I would like to remind everyone that this 
happened to a real person.
    This happened to an elderly woman, who had already been 
dispatched from her home by a flood before she ended up living 
in this manufactured housing unit.
    First, the sprinkler covers in the unit fell off the 
ceiling and hit the woman, cutting her face. She was lying in 
bed. CB&I dispatched a technician, but that person was not able 
to fix the problem. There was zero followup. And then a couple 
of weeks later, the CB&I inspector told the resident that she 
should no longer cook in the unit. He said the heat from the 
cooking range might cause the still broken sprinkler system to 
flood the trailer.
    Unfortunately, it got worse. At 9:30 on January 18, nearly 
a month after the sprinkler fell from the ceiling, the 
resident's unit began to flood with water from the toilet and 
the sewer. She called the CB&I maintenance line again to report 
this active flooding, and she was told that someone would call 
her back shortly. The flooding started about 9:30 a.m. By 6:30 
p.m., CB&I still had not sent any help.
    Mr. Boone, what is your response to this?
    Admiral Boone. My response--sorry. My response is that's 
unacceptable performance. I wasn't aware of those set of 
circumstances, and we should address them.
    Mrs. Demings. You testified that you subcontract out the 
maintenance of these units. Is that correct?
    Admiral Boone. Yes, ma'am.
    Mrs. Demings. Have you fired any of your subcontractors for 
their poor performance?
    Admiral Boone. We have.
    Mrs. Demings. Mr. Boone, how do you conduct oversight of 
your subcontractors to ensure that they are performing this 
very--the very important duties in an acceptable manner?
    Admiral Boone. We have a quality management program not 
only for our subs but for our own CB&I work that manages the 
quality of performance that we're providing.
    Mrs. Demings. So if that be the case, Mr. Boone, how could 
this unfortunate incident even be possible, since you're saying 
you provide oversight?
    Admiral Boone. I don't have an answer to that question. I'd 
have to dig into the specifics.
    Mr. Fenton, how can FEMA exercise oversight of 
subcontractors in a more effective way?
    Mr. Fenton. We do that through a number of ways. We have a 
contractor's officers technical representative that overseas 
the prime, and then have project officers that oversee the 
whole operation the contractors are doing. And that is where we 
are aware of issues, we work through the prime to make changes 
based on what those issues are. And there's a set of escalation 
activities that would happen over the course of the contract, 
and we would go through those according to the regulations.
    Mrs. Demings. Mr. Chairman, thank you. I yield back.
    Mr. Cummings. Would the gentlelady yield? Would the 
gentlelady yield?
    Mrs. Demings. Yes. Yes, I will.
    Mr. Cummings. Thank you very much.
    I want to go back to--Mr. Fenton, I want you to address 
some of the concerns that Mr. Harrell----
    Mr. Harrell. Yes.
    Mr. Cummings. --when he was talking about--when the 
chairman put up a chart with all those--the differences in the 
prices we could get things from Amazon. Talk--can you talk 
about that a little bit? He said there were several times 
when--certain situations where it would have been better if the 
locals--am I right, Mr. Harrell? --were allowed to do certain 
things.
    Are you--is it that you're handicapped by regulations, Mr. 
Fenton? You remember--you remember the discussion, right?
    Mr. Fenton. Yes. So I think, specifically, he had a number 
of issues going across a bunch of different programs that we 
have. But, specifically, with regard to our individual 
assistance program, it's direct assistance from FEMA underneath 
section 408 that we provide. Following DM82K, we lost the 
authority to go ahead and do direct grants to States and local 
governments. So the assistance flows from us to the individual, 
which is, I believe, the issue that's--that the gentleman is 
bringing up with regard to the ability to share information. 
When we have personal information of survivors, we're limited 
to what we can share as far as their personal information.
    Mr. Cummings. I'll get to that one. But what about the 
pricing? Talk about the pricing and what the chairman talked 
about a little earlier, the Amazon comparison.
    Mr. Fenton. Sure. Sure. I don't know the specifics, whether 
we're comparing apples to apples or apples to oranges or 
whether the model numbers are correct. We'd have to look into 
that and do that.
    We purchase based on what is--to ensure habitability, to 
ensure safety of the items we're purchasing. Usually, we 
purchase to a higher level because of the ability to track 
items----
    Mr. Cummings. Well, my time has expired, but I just--those 
comparisons that he made or contrasts are glaring, and I don't 
think that your response just now meets the level of adequate 
response, but I'm sure we'll get to that later.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    We'll now go to Mr. Mitchell of Michigan. You're now 
recognized for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chairman.
    Governor Edwards, the Shelter at Home Program was put in 
place to allow for an alternative for residents to get 
temporary repairs to remain in their home versus the cost of 
manufactured housing units and all the others things. One of 
the concerns, though, is when the survey was done this past 
December, over 2,000 people, one-fifth of the homeowners that 
use the Shelter at Home Program, 46 percent of them said that 
they would not return home; that, in fact, they were concerned 
about the shoddy repairs and questionable living conditions.
    How are you resolving that given that you've given yourself 
a B plus grade?
    Governor Edwards. Well, in terms of the number of folks who 
have not returned to the home after Shelter at Home was 
completed, I would tell you that the 80 percent, assuming 
that's representative of the entire 11,000, represents a 
tremendous cost savings and largely acknowledges that the 
program was successful in keeping people in their communities.
    Further, for some of the folks who didn't move back into 
their homes proper because the Shelter at Home actually 
restored a functioning restroom and electrical service, they 
were able to move travel trailers and other trailers onto the 
property even though they weren't provided by FEMA, they 
weren't MHUs, and they were able to live on the properties but 
not in the house while they were able to do the permanent 
repairs.
    Mr. Mitchell. Let's talk about cost----
    Governor Edwards. And we also made sure that the houses did 
not suffer mold or animal infestations, which would render them 
even a bigger problem for the homeowner going forward.
    Mr. Mitchell. Governor, 46 percent of the people chose not 
to move back in. But let's talk about cost-effectiveness.
    The Shelter at Home price for, for example, electrical 
assistance, inspection repair, an invoice that was done that in 
fact the work was not done, the family did themselves--I should 
say, electrical systems inspection test, not repair, was over 
$500. Now, I just completed a 3-hour home inspection, 3 hours 
inspector stayed and tested all the receptacles, opened up the 
panel, tested two units, heating and cooling, went up on the 
roof, I could give you the list, he spent 3 hours. Do you want 
to guess what that cost me?
    Governor Edwards. No, sir.
    Mr. Mitchell. $625. $625. Just to test the electrical 
system cost the Federal Government, 10 percent paid by the 
State, but the majority by us, the Federal Government, $527. 
How do you justify some of the prices? I mean, pest control. 
They put in a $10 container of bug spray from Home Depot and 
the charge was $425. Heck of a contract.
    Governor Edwards. Yeah. And, Congressman, the only thing 
that I can tell you is that we quickly set up a program modeled 
after the New York STEP program and made sure that we brought 
in enough contractors where they would competitively bid, drive 
the cost down. We then used Xactimate in order to individually 
price the 62 repair items and drove the price down further.
    Mr. Mitchell. By bringing these contracts, how did it drive 
down the price, when, in fact, I made a phone call through a 
realtor that referred me to a gentleman, and it was $625? I 
didn't have to bring in a whole lot of contractors to get 
competition. I mean, how is it that we got--how did that work?
    Governor Edwards. Well, I think the nature of the program 
was a little different when we were looking at, at that time, 
as many as 20,000 homes, and we ended up doing a little less 
than 11,000.
    Mr. Mitchell. But we paid in this instance just to inspect 
and test an electrical system over $500. I mean, I understand 
the scale is different, but the reality----
    Governor Edwards. But, Congressman, my point was we had 
multiple contractors who were bidding costs. We then analyzed 
those costs. We drove them down even further using the 
Xactimate to make sure that we did reduce the overall cost of 
the program. And would we have liked to have reduced it 
further? Yes, we would have. But at the end of the day, the 
cost of the Shelter at Home Program was much less than the cost 
of putting them in hotels or motels.
    Mr. Mitchell. Well, let me----
    Governor Edwards. Certainly a mobile--manufactured housing 
units, which really weren't available.
    Mr. Mitchell. Before I retired, I was a State and Federal 
contractor at points in time, and I have better than--those are 
quite nice contracts in terms of the markup that the chairman 
noticed on some of the materials: $525 to test an electrical 
system. And, frankly, if 46 percent of the customers that I 
worked with failed to succeed, they'd have terminated my 
contract.
    How many contracts did you--how many contracts did you 
terminate out of the build--the home program?
    Governor Edwards. I don't know how many we terminated in 
terms of the construction contractors. I do know that we moved 
some work around and took some work from some who were being 
slow and gave it to other contractors.
    But I will tell you, with respect to the chairman's 
pricing, you should note that the prices he mentioned did not 
include the cost of labor or the insulation materials on those 
things, which----
    Mr. Mitchell. But it did include Amazon Prime, Amazon 
dropping them off at their doorstep, sir.
    My time has expired, but one comment for you. With all due 
respect, sir, I suggest you reconsider the grade of B-plus 
because, in my view of this, the Shelter At Home Program 
reflects a lot of failures, and I wouldn't grade it a B-plus. 
Thank you, sir.
    Governor Edwards. Thank you.
    Chairman Chaffetz. The gentleman yields back.
    We'll now recognize Ms. Plaskett from the Virgin Islands 
for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman and Ranking Member, 
for holding this hearing.
    FEMA, of course, we understand is very important and the 
work that their contractors do for communities who are in these 
flood areas and who are in--have natural disasters are 
paramount. So I am here not just speaking on behalf of those 
communities, such as my colleagues Congressman Richmond and 
Congressman Graves, but my own community in the Virgin Islands, 
as well as Florida and the Southeast.
    Admiral Boone, I want to ask you about a statement that you 
made this morning. It's in your oral statement as well as your 
written statement. I'm going to quote you as having said, ``We 
have received only positive comments and glowing accolades from 
FEMA at all levels about our performance under this task.''
    Admiral Boone, would you stand by that statement?
    Admiral Boone. Absolutely. So, during the events, we 
obviously were ramping up to address the tasking we were 
getting from FEMA. So, on a continuous basis, I asked my vice 
president of operations and the project manager----
    Ms. Plaskett. And who would those individuals be?
    Admiral Boone. Larry Hauser and Kevin Neal.
    Ms. Plaskett. Okay.
    Admiral Boone. --who had a recurring and regular 
relationship with FEMA officials, for feedback on what their 
perception of our performance was. And so we, as late as a week 
and a half ago, continue to receive very positive comments.
    Ms. Plaskett. Well, that's a problem to me on a couple of 
levels: one, that you would state that continuation of positive 
comments and glowing accolades, and particularly, as you 
mentioned, Kevin Neal as being someone--I believe he--we have 
him listed as your senior project manager, correct?
    Admiral Boone. Yes, ma'am.
    Ms. Plaskett. Because our--the committee received documents 
from you, and we have an email of September, dated September 27 
of 2016, and that's from FEMA's Region VI branch director, 
Robert Jones, addressed to Mr. Neal. And in that email, the 
FEMA branch director wrote, and I quote, ``Please get your 
crews in line so that we are able to move forward with these 
issues with minimal issues. Today, I am scrubbing my emails, 
and I have seen at least 20 problems with your subs. Please 
drop the hammer on these guys because their performance does 
not look good on you and your reputation that you and your team 
have established.''
    Have you seen that email? It's up there for you.
    Admiral Boone. No, ma'am.
    Ms. Plaskett. Because that's an email that your company 
submitted to us from FEMA to Mr. Neal, who is telling you that 
he's getting glowing comments from FEMA. Do you view this email 
as positive comment or an accolade?
    Admiral Boone. No, ma'am.
    Ms. Plaskett. I didn't either. So why was it necessary for 
FEMA to send this email to your company and tell you to drop 
the hammer on your subcontractors?
    Admiral Boone. I don't know. I haven't seen the email and 
the total context of the issue. So that's something to be 
looked at.
    Ms. Plaskett. Well, we know from our investigation that 
we've had several issues. We heard from Congresswoman Demings 
about the woman that was an unfortunate victim. We also have 
information about another person who had--Mr. Everett Wilson, 
an 84-year-old blind Air Force veteran who was found dead in a 
housing unit because of a malfunctioning thermostat that CB&I 
was supposed to have replaced back in August and October 2015. 
So you know about those issues.
    Admiral Boone. So the thermostat was not to be replaced 
prior to his passing; that came out afterwards, just to be 
clear on that issue.
    Ms. Plaskett. But we know that thermostats needed to be 
replaced, correct?
    Admiral Boone. We didn't receive that direction from FEMA 
until into October.
    Ms. Plaskett. Well, in a meeting after Mr. Wilson's death, 
CBI told FEMA that you had replaced at least 40 thermostats in 
the week immediately preceding Mr. Everett's death, did you 
not?
    Admiral Boone. I don't know that fact.
    Ms. Plaskett. So if you--you knew that thermostats needed 
to be replaced. Maybe his was scheduled to be replaced after 
his death----
    Admiral Boone. We didn't----
    Ms. Plaskett. --but you had been replacing other 
thermostats before his death.
    Admiral Boone. We didn't know about the thermostats until 
after his passing.
    Ms. Plaskett. You didn't know what about the thermostats?
    Admiral Boone. The replacement. We didn't receive direction 
from FEMA until after his passing.
    Ms. Plaskett. But why, then, would you have replaced 40 of 
them before his passing?
    Admiral Boone. Perhaps those thermostats were discovered 
defective on an inspection. I don't know about the----
    Ms. Plaskett. Forty?
    Admiral Boone. I don't know----
    Ms. Plaskett. Not one; 40.
    Admiral Boone. I understand.
    Ms. Plaskett. So, obviously, you had some schedule of 
replacing them before his death.
    Admiral Boone. There were 3,000--well, at that point, I 
don't know how many trailers. But I don't know the specifics of 
that. So I can't answer that question.
    Ms. Plaskett. Okay. I'm sorry. I've exhausted my time.
    Chairman Chaffetz. Will the gentlewoman yield?
    Ms. Plaskett. Yes, sir.
    Chairman Chaffetz. Following up, both CB&I and FEMA, we 
have asked you for the emails relating to this issue. You have 
not provided those in their totality to this committee. I need 
you to both tell me when we're going to get those emails.
    Mr. Fenton?
    Mr. Fenton. I was told that any email with regard to this 
incident was provided to you. If that's not the case, I'll go 
back and----
    Chairman Chaffetz. We don't believe it is. We believe that 
production is incomplete.
    Mr. Fenton. Okay. Well----
    Chairman Chaffetz. We need you to come back to us and tell 
us when we have 100 percent of the documents that we requested.
    Mr. Fenton. I'll personally go back today and make sure you 
receive everything. There's nothing that----
    Chairman Chaffetz. Appreciate it.
    Mr. Fenton. --we're going to hold. We'll give you 
everything that we have.
    Chairman Chaffetz. Appreciate it.
    Mr. Fenton. Yes, sir.
    Chairman Chaffetz. Mr. Boone?
    Admiral Boone. Chairman, we received notification only last 
week to provide----
    Chairman Chaffetz. The letters went out on March 21----
    Admiral Boone. Right.
    Chairman Chaffetz. --which is not just last week, but keep 
going.
    Admiral Boone. We have provided over a million pages in 
documents in various forms and formats. So we will continue to 
work as diligently as possible. I've devoted resources and 
focus to this. So we're continuing to work this.
    Chairman Chaffetz. So the question is, when are we going to 
get 100 percent?
    Admiral Boone. I'll have to go back to staff and see what--
but we're working this as diligently as possible.
    Chairman Chaffetz. You did give us a fairly sizeable 
document dump of invoices and individual things, but this is 
something we specifically have asked for, and I just want to 
make sure Ms. Plaskett and the whole committee gets these as 
well.
    Admiral Boone. Yes, sir.
    Chairman Chaffetz. You'll get us an estimate on the date of 
that?
    Admiral Boone. Yes, sir.
    Chairman Chaffetz. Okay.
    Ms. Plaskett. And, Mr. Chair?
    Chairman Chaffetz. Yes. Go ahead.
    Ms. Plaskett. I would just want to know if Mr. Boone, 
Admiral Boone, at this time would like to retract that 
statement that he had made previously, which is on the record 
under oath. I don't want him to get himself in trouble at this 
point.
    Chairman Chaffetz. Which statement?
    Ms. Plaskett. About having had only accolades and good 
words from FEMA.
    Admiral Boone. I can only attest to the feedback that I 
have received. Obviously, you've presented some information I 
haven't seen before. So I'd like the opportunity to review that 
before I make any changes to my statement.
    Mr. Cummings. Would the gentlelady yield?
    Ms. Plaskett. Yes, sir.
    Mr. Cummings. Mr. Boone, your company has a problem. If I 
were running your company and I had these kinds of problems and 
something did not flow up to me, the very things that could 
destroy my business, there's something wrong with the company; 
there's something wrong with the management. And it might be 
you, but there's something wrong.
    Anyway, I yield back.
    Chairman Chaffetz. The gentlewoman yields back.
    I would now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Fenton, I just want to ask while I have you here, we 
obviously suffered damage on the East Coast of the United 
States. I represent Florida. The Stafford Act has the public 
assistance program that can fund replacement of sand on damaged 
public beaches under certain conditions. And we currently in 
Florida have the State and then localities working to secure 
funding to restore some of the dune structure prior to the next 
hurricane season.
    It's a tough process. We have partners who are kind of 
ready to go. Can you commit to really working to streamline 
this so that whatever we can get lined up, we can get lined up 
before the next hurricane season, when there's some significant 
safety concerns?
    Mr. Fenton. I'm not aware of the specific situation. I am 
aware of policies to replace sand on beaches, that they have to 
be engineered. Typically, my experience is what holds it up is 
environmental and other requirements in order to go ahead and 
move forward on that. But I'll look into your specific issue, 
sir, and make sure that we're moving as quick as we can with 
the authorities to go ahead and repair that.
    Mr. DeSantis. Yeah. I appreciate it----
    Mr. Fenton. Yes, sir.
    Mr. DeSantis. --because there's been significant damage to 
some of the dune structure such that, if we do have another 
major storm surge, I mean, there's much less protection. And I 
think it could be corrected, but obviously we need to get our 
ducks in a row.
    The other issue I think people have run into is the debris 
removal and getting the reimbursements. The guidelines that 
FEMA has are very confusing to a lot of our local folks, and we 
work with them as best we can, but it's a cumbersome process. 
And I was wondering, do you think there are ways that either 
Congress could revise the Stafford Act, or can FEMA revise its 
guidelines for debris removal so that we can avoid some of the 
delays in reimbursements? Because some of the local 
governments, it will take years for them to get reimbursed, and 
it's tough for them, because they don't have a credit card like 
the Federal Government does.
    Mr. Fenton. So debris in public areas, public rights of 
way, is eligible. And, basically, what we require is monitoring 
so that we ensure that what we're providing is what was 
removed, reduced, or eventually put into landfills or other 
means. I think where it becomes difficult is when we start 
talking about debris removal on private property, and that 
becomes the issue. And typically it's--we based our rules on 
what the local ordinances are and declaring that it's a public 
health threat in order to move it off there.
    So our authority applies to public rights of way, public 
areas. It has to be an imminent threat to public health and 
safety to remove that. I think it's pretty easy when you're in 
that area. When you get into private property, it's more 
difficult. And we've done a number of things to provide 
guidance, training to make sure that we've made our rules more 
simple for private property debris removal, which is usually 
the more difficult.
    Mr. DeSantis. Well, if you guys can, you know, work to 
proactively relay that and try to alleviate some of the 
confusion, I think that would be helpful, because I think that 
there are these issues where they're just trying to figure out 
what they got to do. They want to get rid of it. They're going 
to front money, but they want to at least know whether it's 
going to be eligible for reimbursement. So I appreciate that. 
And if you can follow up with me about the dunes, we'd 
appreciate that very much.
    I'll yield back the balance of my time to Mr. Chaffetz.
    Chairman Chaffetz. Governor, how many people are still 
displaced?
    Governor Edwards. Chairman, I am not certain, as I sit here 
today, how many of our homeowners are not at home. We know that 
there are, I think, 250 families still in hotels and motels. We 
know that there are a number of individuals who, for example, 
under the National Flood Insurance Program either are starting 
to work or haven't had their claims paid yet, and they are 
trying to get back in as well.
    Chairman Chaffetz. But do you have a guess as to how many 
people are displaced?
    Governor Edwards. I don't have a guess. I would be able to 
perhaps----
    Chairman Chaffetz. Governor----
    Governor Edwards. --get you the information. We have a 
number of individuals, for example, who are living with family 
members, and so it's--to get you the number is very difficult. 
We know that there are thousands of families not yet living in 
their homes. I can give you a more precise answer after we do 
some analysis and we look at it across the various programs.
    Chairman Chaffetz. Governor, you know how bad that looks, 
right? I mean, you are coming here for a hearing about this, 
and you don't even have a guess as to how many people are 
displaced?
    Governor Edwards. I do not.
    Chairman Chaffetz. You're that clueless?
    Governor Edwards. I'm not that clueless. We have a lot of 
people in homes that are not yet fully repaired. A lot of 
people are not in homes----
    Chairman Chaffetz. A lot.
    Governor Edwards. Yes.
    Chairman Chaffetz. A lot. What does that mean?
    Governor Edwards. Well, you know, it means a great number. 
It means too many.
    Chairman Chaffetz. Come on, Governor. Seriously.
    Mr. Fenton, what's your estimate?
    Mr. Fenton. If--I believe 4,500 people staying right now in 
mobile homes. You have less than 2,000 that we're providing 
rental assistance to right now. You have the 250 the Governor 
talked about that are still in our hotel program, and then I 
believe there is some population that's still with friends and 
families. And that's the population that we will get a better 
handle on as we start doing case management with individuals 
that still have housing issues that we're going to work with 
them to figure out what assistance they need to ultimately move 
back into their homes.
    Chairman Chaffetz. Mr. Harrell, what--tell me what it's 
like right now.
    Mr. Harrell. Well, let's talk about the number of folks 
that are still not in their home. Let's go back to number one 
on my testimony: information sharing. I don't have a clue. I 
want to know how many. I want to know where they stand. FEMA is 
out doing the assessments with all their teams. They're telling 
me they're doing great things. I know nothing about it because 
they will not share with me.
    It is our citizens. It's my responsibility to make sure 
they're taken care of, but we're out of the loop. I can't tell 
you how many. I wish I could.
    Chairman Chaffetz. Okay. Mr. Fenton, why don't you tell 
him?
    Mr. Fenton. Well, we can't share specific information on 
individuals due to Freedom of Information----
    Chairman Chaffetz. What do you mean Freedom----
    Mr. Fenton. I mean, not Freedom. With regard to their 
personal information, and we can't share their personal 
information and their specific status. However, through the 
case management----
    Chairman Chaffetz. Why not? Why not?
    Mr. Fenton. Because it's personal information, and we can't 
go ahead and give that----
    Chairman Chaffetz. Well, I'm not suggesting you print it in 
the paper.
    Mr. Harrell?
    Mr. Harrell. If we can't do it on individual assistance, is 
what he's saying, however, when we do the Hazard Mitigation 
Grant Program and do elevations and acquisitions, they send a 
list with the allocation and say, ``This is the folks that 
qualify for the program,'' their name, their address, their 
phone number. We have to process every bit of their private 
information. So what is the difference in the Hazard Mitigation 
Grant Program after the storm and not letting me have it during 
the disaster, where we can maybe get it to private nonprofit 
groups that maybe could help these citizens a little bit more?
    Chairman Chaffetz. Okay. I've gone well past my time. We've 
got to continue to explore that.
    Mr. Fenton, go ahead.
    Mr. Fenton. I meant to say Privacy Act. I'm sorry.
    Chairman Chaffetz. That's fine. I understand.
    All right. Let's now recognize the gentleman from 
Pennsylvania, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Governor Edwards, we're here talking about the historic 
flooding that hit Louisiana and the Baton Rouge community in 
August 2016. Congress appropriated about $437 million on 
September 29, 2016, for the victims of the flooding in 
Louisiana.
    This committee, the Oversight and Government Reform 
Committee, has received a letter from the Trump administration, 
dated February 14, 2017, from the General Deputy Assistant 
Secretary of HUD commending you and the State of Louisiana on 
your quick work in developing an action plan on how to use 
those funds. The letter states, and I'm going to quote: ``The 
Department would like to commend the State for its commitment 
to increasing the speed of recovery. This is evidenced by the 
historically fast action plan submission,'' unquote.
    Now, Governor Edwards, I want to ask you: How long did it 
take you to submit that action plan that you were commended 
for?
    Governor Edwards. Well, it took us 17 days after the 
Federal Register notice went out to submit that action plan. 
And this ties back in with some of the information and 
questions we got earlier today. There have been two 
appropriations that total $1.6 billion. Both action plans were 
submitted, the first one 145 days ahead of the deadline and the 
second one 8 weeks ahead of the deadline. And the money 
actually became obligated yesterday when HUD signed and 
completed the execution of the grant agreement. The money is 
not yet available because the line of credit has not yet been 
established. That typically happens several days, maybe a week 
or two, after the grant agreement, which answers the question 
of the chairman and others as to why none of the $1.6 billion 
has yet reached homeowners; it has not been available.
    But if you look, it is historically fast. In fact, the 
timeline associated with this said the $438 million would 
typically be available in May. It was available--it should be 
available much sooner than that. And in terms of the second 
appropriation, it would be July. But it was folded into the 
grant agreement with the first appropriation and should be 
available much, much sooner than that.
    And I'd also point out that the other grantee States in the 
September appropriation have yet to submit their first action 
plan.
    Mr. Cartwright. Well, all right. So, not to put too fine a 
point on it, while your actions have been very quick, it's 
obvious that you've been frustrated by the State's inability to 
distribute those funds. And, again, would you explain for us 
what obstacles your State has faced in distributing this money 
to the victims of the flooding?
    Governor Edwards. Well, in that way, I share those 
frustrations with you and the chairman and others, and nobody's 
more frustrated than the homeowners in Louisiana. But to say 
that the State was delaying or dilatory in the way that we 
approached this would not be true, as evidenced by the letter 
we got from HUD, for example, that called our work historically 
fast. But there is a huge bureaucracy that still has to be 
negotiated. There are lots of hurdles that you have to overcome 
and obstacles you have to go through in order to access the 
funding, but we are in the position now with the money finally 
obligated yesterday, on Monday of next week, we're actually 
going to stand up the program in terms of a call center and a 
survey that will go out to the affected homeowners and should 
be able to proceed without delay going forward. And that is the 
good news.
    We still have about a billion dollars of unmet need on the 
housing piece alone, which we're hoping some or all of that 
will be appropriated in the next continuing resolution.
    Mr. Cartwright. Governor, did the State of Louisiana have 
the resources to front this money and then seek reimbursement 
from the Federal Government later?
    Governor Edwards. No. I wish we had. My predecessor left me 
with a $2 billion State general fund deficit for the current 
fiscal year, and the budget is more than tight. We certainly 
did not.
    Mr. Cartwright. Well, Governor Edwards, I commend you and 
the State of Louisiana for taking charge of the lengthy process 
of seeking disaster aid for the Baton Rouge community. Your 
administration acted swiftly and decisively. We in Congress 
really ought to take a page out of your book and focus on 
making processes faster here in Washington as well. Thank you 
very much.
    Governor Edwards. Thank you, Congressman.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Governor, I'm confused. You are there pointing the finger 
at someone else, and you can't answer the very basic question 
of how many people are not back in their homes, and you're 
somehow pointing towards a previous administration on your 
inability to answer even the very basics of questions, 
Governor? How is that?
    Governor Edwards. I think the comment I made about the 
previous administration had to do with----
    Mr. Meadows. So let me ask about this administration. Why 
did you cancel a $250 million flood recovery contract just a 
few days ago?
    Governor Edwards. We didn't issue the contract. We pulled--
--
    Mr. Meadows. Why did you cancel it?
    Governor Edwards. We didn't cancel it.
    Mr. Meadows. Well, according to my documents, that you 
canceled that on March the 16th, 2017, and you basically--
because Mr. Bankston had an opinion that it needed to be 
canceled.
    Governor Edwards. Well, there was no contract issued. We 
pulled back the RFP. We reissued the--we started the process 
over again.
    Mr. Meadows. Why did you get rid of that particular vendor? 
Because what I understand is, is they had submitted a proposal, 
it was going forward, and one person, Larry Bankston, somehow 
said that there was a problem there, Governor.
    Governor Edwards. Well, I think that's inaccurate. The 
licensing contract board voted to adopt that opinion as its 
own. At that point in time, the first two finishers in----
    Mr. Meadows. Does Mr. Bankston's son work for a competing 
contractor in that?
    Governor Edwards. You know, I've heard that. I'm not 
certain.
    Mr. Meadows. So how can you be so certain about some 
aspects of this, Governor, and yet seem to have no recollection 
on the facts and the questions that we have to ask here this 
morning?
    Governor Edwards. Well, first of all, I think I had a 
pretty good handle on the facts and----
    Mr. Meadows. So how many people are displaced?
    Governor Edwards. Well, I've answered that particular 
question as best I can.
    Mr. Meadows. No. Well, you haven't answered it. You said 
you don't know.
    Governor Edwards. I said as best I can this morning, I've 
answered it for you, Congressman.
    Mr. Meadows. So were you surprised that you were going to 
be testifying here this morning?
    Governor Edwards. No, sir.
    Mr. Meadows. Then why would you not have the--I mean, we're 
talking about real people's lives here, Governor. And if you 
have a compassionate bone in your body, wouldn't you think that 
you would know the number of people that have been affected by 
this?
    Governor Edwards. I know the number of people who have been 
affected, Congressman.
    Mr. Meadows. Still.
    Governor Edwards. The question is how many people are out 
of their homes today. And we don't have any information where 
we can roll that up and know how many people--we know how many 
are, obviously, in manufactured housing units; we know the 250 
who are in----
    Mr. Meadows. So do you believe that you are without blame 
of any of the responsibility of getting people in proper 
housing in the appropriate manner, that you are completely 
blameless in all this, Governor?
    Governor Edwards. I would never say that I'm completely 
blameless. And, in fact, I said we've learned lessons; we could 
do things better. And hopefully there----
    Mr. Meadows. But you were sitting there comparing your 
norms to historical norms.
    Governor Edwards. Well, I was quoting a letter that----
    Mr. Meadows. And sometimes when you compare to historically 
bad things, that doesn't mean we're making much progress.
    Governor Edwards. Congressman, I was quoting a letter that 
came from HUD that said we were historically fast in the State 
action plan submission and approval. That's a fact.
    Mr. Meadows. All right. Well, we want more information on 
exactly why this RFP was rescinded and if there was a conflict 
of interest, because some of our information would indicate 
that there might have been. And I'm not asking you. I'm asking 
you to get back to this committee to help illuminate that 
particular idea, because if there's a conflict of interest 
because of bidding improprieties, that's a major concern to 
this Oversight Committee. Wouldn't you agree it should be?
    Governor Edwards. Well, it should be if that happened. The 
RFP was pulled back----
    Mr. Meadows. So you're saying it didn't happen?
    Governor Edwards. I said ``if that happened.'' I didn't say 
whether it did one way or the other.
    Mr. Meadows. All right. But you'll find out and get back to 
this committee?
    Governor Edwards. Sure. We will find out----
    Mr. Meadows. Okay. Thank you. Let me go out a little bit 
further, because I'm out of time.
    Mr. Fenton, let me tell you: I have a good relationship 
with FEMA. We've had major storms of North Carolina. I love my 
FEMA people. But let me tell you: Something I saw today just 
stinks to the core. We've got emails that would suggest that 
the number one priority that FEMA had was a political 
motivation prior to an election that says, and I quote: We have 
no way to predict what news will--this will do to our operation 
and congressional offices will use prior to an election.
    Wouldn't you think the major component for FEMA would be to 
get people in housing and make sure that that housing is safe, 
and it has nothing to do with political consequences?
    Mr. Fenton. Yes, sir.
    Mr. Meadows. All right. Well, let me go even further, 
because that was troubling enough, but this is extremely 
troubling: a FEMA document where it talks about the number one 
priority for FEMA was negative publicity. Should that be the 
number one priority?
    Mr. Fenton. No, sir.
    Mr. Meadows. All right. So let me show you what the lowest 
priority was, and this is from your document. And this is very, 
very troubling, because the lowest priority, tier 3 is what you 
have, which it says, ``lowest priority,'' and it has to do with 
mobile home units issues.
    It says: Status, we have an applicant calling stating that 
they have a 2-year-old special needs child who has desperate 
need for surgery but can't get surgery until they have a stable 
living situation instead of their 30-foot camper. The child is 
very sick, and they have nowhere to go at this point, and they 
need--an MHU is needed as soon as possible.
    And you had it as a low priority, tier 3? What in the world 
could have put this as a low priority?
    Mr. Fenton. Sir, my priority is survivors. And I don't know 
where that document came from, but I'm going to find out after 
this, and I'll make sure that we change the--whoever wrote its 
priorities.
    Mr. Meadows. I would suggest that we quit looking at the 
political motivations and start taking care of people.
    And I'll yield back.
    Mr. Fenton. I concur.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Mr. Fenton, my experiences with FEMA have 
been very good, as the gentleman from North Carolina. And I 
assume that that is not your position, that low priority 
situation there, because all of my dealings, I've found them to 
be very responsive.
    Mr. Fenton. No, sir.
    Mr. Cummings. And--hello?
    Mr. Fenton. No, sir. That's--my priority is survivors. My 
priority is not that document. I don't know where that document 
came from, but I'll resolve it when I get the document and I 
get back to my office.
    Mr. Cummings. Thank you. Yes, sir.
    On October 25, 2016, Everett Wilson was found dead in his 
housing unit because it turned into an oven due to a broken 
thermostat that blew heat nonstop. He was 84 years old, blind, 
and served our country in the Air Force, a veteran. What we 
don't know is why Mr. Wilson's broken thermostat was never 
fixed.
    As part of our investigation, our staff spoke several times 
with Mr. Wilson's caretaker. She told us that, in the weeks 
leading up to Mr. Wilson's death, she repeatedly called for 
maintenance help. In response, she says a maintenance person 
was dispatched to Mr. Wilson's unit, but he said he was not 
qualified to fix HVAC systems and had no one else--and that no 
one else ever came.
    Mr. Boone, according to your written testimony, and I 
quote, it says: ``FEMA contracted with CB&I Federal services to 
transport, install, and maintain mobile housing units for 
approved disaster victims,'' end of quote. Is that right.
    Admiral Boone. Yes, sir.
    Mr. Cummings. Mr. Wilson's unit was one of those units that 
you were contracted to transport, install, and maintain. Is 
that right?
    Admiral Boone. Yes, sir.
    Mr. Cummings. Your attorney sent a letter to the committee 
on March 29, 2017, and it stated, and I quote: ``The 
maintenance call logs included for this production reflect the 
fact that there was not a single call made to a call center 
regarding the trailer on Lot 5, nor were there any calls 
associated with the name of the applicant.''
    Are you telling us today under oath that your company never 
received a single call from Mr. Wilson's unit, the veteran that 
I just talked about, the one who died because he roasted to 
death, I guess, or do you believe that it's possible that your 
company did receive a call that may not have been properly 
logged?
    Admiral Boone. We----
    Mr. Cummings. It doesn't sound like you're getting all the 
calls, as I stated a little earlier. Go ahead. I'm listening.
    Admiral Boone. What you said is correct. We never received 
a call on either his unit, Lot 15, or anything referencing Mr. 
Wilson's name.
    Mr. Cummings. Okay. Our staff reviewed the maintenance call 
logs, and there were numerous errors in the weeks before Mr. 
Wilson's death, including incomplete names, phone numbers, and 
addresses. In the weeks right before Mr. Everett's death, our 
staff found at least 25 work orders for heating and air-
conditioning issues. They sound a lot like what we heard from 
Mr. Wilson's caretaker. They describe defective HVAC systems 
and systems continuously blowing hot air. Two of these work 
orders say that the technicians dispatched to the sites were 
unable to perform the repairs and had to call for other 
technicians to perform them. That sounds almost exactly like 
what we heard from Mr. Wilson's caretaker.
    Now, Mr. Boone, were you aware before October 26 that there 
were issues with thermostats in some of these mobile units?
    Admiral Boone. I was not aware of the numbers. It's not 
uncommon to have system breakdowns, and so we do the 
maintenance and repair as required.
    Mr. Cummings. And you're based down there in Louisiana? Are 
you based there?
    Admiral Boone. I am based in Alexandria, Virginia.
    Mr. Cummings. Okay. And so--but this is a big contract for 
you. You've made a big deal of how you knew a lot of the people 
and----
    Admiral Boone. We have offices down there, yes, sir.
    Mr. Cummings. So do you feel that your company has any 
responsibility here?
    Admiral Boone. Directly related to Mr. Wilson's death, no, 
sir. Obviously, some information's been presented here that we 
need to look into.
    Mr. Cummings. So you don't think there's anything you could 
have done better?
    Admiral Boone. We----
    Mr. Cummings. Your company could have done better.
    Admiral Boone. We did what was required by the contract. 
We're interested in working with FEMA to see if there's any 
patterns that could be improved.
    Mr. Cummings. So you said you did what was required by the 
contract, and an 84-year-old man is dead, and your company was 
responsible for making sure his unit was operational, and you 
don't even know that you're getting correspondence from below, 
but you did nothing wrong? But he's dead. Dead.
    Admiral Boone. Sir, I appreciate the seriousness of that, 
absolutely.
    Mr. Cummings. Mr. Boone, do you commit to providing all the 
documents that have been requested by the committee?
    Admiral Boone. Have we provided?
    Mr. Cummings. I said, do you commit to--apparently you told 
us you had sent in a million. How many--I mean, do you have 
many more that we need to--that we need to have access to?
    Chairman Chaffetz. Will the gentleman yield for a second?
    Mr. Cummings. Yes, of course.
    Chairman Chaffetz. I want to follow up on what Mr. 
Cummings--before we get to the document production, I want to 
follow up on this for a second.
    You gave yourself a--you said you're highly successful, Mr. 
Boone. On January 4 of 2017, FEMA officials circulated an email 
pointing out that you, the contractor, had a completion rate 
for December of 10 percent--10 percent. How do you say you're 
highly successful when only 10 percent of the maintenance calls 
you actually complete?
    Admiral Boone. Well, again, I haven't seen that document. I 
haven't seen the context of that communication. I've never 
seen----
    Chairman Chaffetz. Mr. Fenton, is that true? Did FEMA put 
that out that only 10 percent?
    Mr. Fenton. I'm not aware of----
    Chairman Chaffetz. Come on, guys. Get aware. The Governor 
doesn't know how many people are displaced. You don't know how 
many maintenance calls are being missed. You don't--you call 
yourselves highly successful. The Governor gives himself a B-
plus. And maybe the reason you're not responding to all the 
maintenance calls is because you put the wrong maintenance 
number on the trailers. Correct? Correct?
    Mr. Fenton. I'm not aware of----
    Chairman Chaffetz. You're not aware of that either.
    Mr. Fenton. No.
    Chairman Chaffetz. You provided the documents to us. We 
actually read them. Maybe you should read your documents. You 
all together decided to combine one telephone number, ``Hey, 
let's make this easier.'' Sounds good. Guess what? The sticker 
you put on the trailers, wrong telephone number. No wonder 
you're not getting any calls. You put the wrong telephone 
number there. And then the people who still figured it out, 
CB&I only responds to 10 percent of them.
    Mr. Fenton. What I was referring to, as far as not knowing 
the 10 percent in the specific letter you're looking at, when 
we wrote to CB&I, we wrote in our letter that a concern of 33 
percent of the calls have no response information. So that's 
what I am aware of of the letter that we generated over there, 
but I don't have specific knowledge of the email that you're 
talking about.
    Mr. Cummings. Let me----
    Chairman Chaffetz. Yes, sir.
    Mr. Cummings. You know, the chairman and I have done a 
number of things on a bipartisan basis, a lot, and one of the 
things that we spent a lot of time on is the Secret Service. 
And both of us agreed that we wanted excellence. We wanted high 
standards. We wanted the elite of the elite. We wanted people 
to be treated--we wanted Secret Service agents to treat their 
jobs as if they were the most valuable jobs in the world and 
that every single thing that they do is so very, very 
important.
    And I just think--I just--and I say that to say this, that 
sometimes I think we in our country in certain areas are moving 
towards a culture of mediocrity, but that mediocrity can cause 
people to die and to suffer. And I've got to tell you: 
Information is very important. I don't even know how you 
operate without information, and adequate information, Mr. 
Boone. And so I'm just--some kind of way, you got to get a 
handle on this, or I don't see how you--how a company can 
continue to function and really make money and stay in business 
unless you have information and then unless you're operating to 
a high--a very high standard.
    With that, I'll yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Alabama, Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Fenton, what does FEMA do with their excess mobile home 
units?
    Mr. Fenton. Some of them--depending on the condition, some 
are retrofitted and brought back to the yard for future 
deployments. Sometimes we go through the GSA excess schedule, 
and GSA excesses them for us through their schedule. And in 
some case----
    Mr. Palmer. What does that mean? What does through the GSA 
schedule? What does that mean?
    Mr. Fenton. It means that we sell them at the location that 
were there, that they're at, that it's----
    Mr. Palmer. What's the average cost of one of these mobile 
home units?
    Mr. Fenton. I'm sorry? Again?
    Mr. Palmer. What's the average cost of one of these mobile 
home units?
    Mr. Fenton. I believe the average cost is somewhere around 
$60,000.
    Mr. Palmer. And what is GSA selling them for?
    Mr. Fenton. I don't know. It ranges.
    Mr. Palmer. I'll tell you what they're selling them for. 
They're under $11,000. Sounds like a pretty bad deal to me.
    Let me ask you this: Are any of the used units offered to 
State and local governments?
    Mr. Fenton. Yes, sir.
    Mr. Palmer. And how do you do that?
    Mr. Fenton. Going through the GSA excess schedule. It goes 
through a number of steps, where we look at purchasing, the 
potential for--to go to States, local governments, nonprofits 
eventually. So you go down that. It's in the GSA regulations of 
how to access accountable property.
    Mr. Palmer. How does GAS contact a State emergency 
management agency? Could you--I mean----
    Mr. Fenton. They put it out. There is a website----
    Mr. Palmer. They post it on a website?
    Mr. Fenton. Yeah. They post it. And typically, my 
experience, having done this before, back in Region IX where 
I'm from, is typically any time we're doing that, I make the 
State emergency management--notify them where we're headed with 
that.
    Mr. Palmer. So, when you have excess mobile home units, you 
contact GSA first?
    Mr. Fenton. Yes. We contact GSA because that's the entity 
within the government that then has the authority to excess 
property either through sales or through eventually providing 
it to States or local governments, yes, sir.
    Mr. Palmer. So you don't contact the States to let them 
know?
    Mr. Fenton. I--personally there's communication that we 
make them aware of it, but officially, GSA's the one that puts 
out the information.
    Mr. Palmer. Well, the committee heard from several States 
this morning that they've been looking for mobile home units 
for donation and have been told that you're unable to find any. 
And just 2 weeks ago, GSA was selling 20 units at auction.
    You know, I've been sitting here listening to the questions 
and your responses, and one word keeps popping up: incompetent. 
It's unbelievable. I mean, you got States looking for these 
units. You got local governments looking for them. They can't 
get any from FEMA. They're not getting them from GSA, but 
you're selling units that average $60,000 or $70,000--and some 
of them are a whole lot more than that--for $11,000, at a 
terrific loss to the taxpayers. And, I mean, you guys look like 
the gang that can't shoot straight.
    Mr. Fenton. If I could answer, sir.
    Mr. Palmer. You may if you can.
    Mr. Fenton. Yeah. So we purchase them for $60,000. When 
they get used, they're depreciated based on the amount of money 
it takes to----
    Mr. Palmer. You're selling some new units.
    Mr. Fenton. I'm not aware of new units that we're selling, 
sir.
    Mr. Palmer. I looked it up while I was sitting here 
listening to you. There are some listings for new units.
    Mr. Fenton. Okay. Well, we take--what we do is we look at 
the value that they're at, the cost to retrofit them, the cost 
to bring them back to the yard that we would be at, and then 
figure out the cost to sell them.
    Mr. Palmer. Well, how do you respond to the fact that 
States this morning, including the State of Alabama, contacted 
the committee and said, ``We've not been able to get units''?
    Mr. Fenton. We have to go through the process with GSA to 
see if we could sell them first. If they're not--if no one 
wants them on that market----
    Mr. Palmer. Wait a minute. You have to see if you can sell 
them first----
    Mr. Fenton. Yes.
    Mr. Palmer. --before you would donate them to the State?
    Mr. Fenton. That's right. Yeah.
    Mr. Palmer. And you can't offer--you can't give the State 
the option to buy a unit? In.
    Mr. Fenton. Yeah. The State can buy the unit, but it would 
be through that same process. Just recently I did a mobile home 
program in California where we ended up giving 70 mobile homes 
to the State of California. So we----
    Mr. Palmer. Say that again.
    Mr. Fenton. I said back in my region, Region IX, before 
being Acting Administrator for the last couple of months, I had 
a mobile home program in California from the fires, and we 
ended up providing 70 mobile homes in California in that event. 
So, in that event, after we went through the mobile home 
program and we had mobile homes returned and we had excess that 
we ordered, we went ahead and, rather than ship them back to 
Selma, we went ahead and provided them to the State of 
California, which were used on another fire through the State.
    Mr. Palmer. Well, again, listening to the testimony this 
morning, it's disturbing to me, Mr. Chairman, that a Federal 
agency has failed in so many respects. And I think maybe we 
need to look at this process, we need to make some corrections 
and see if we can't be a little bit more responsible, well, 
actually, a lot more responsive to the State and local 
governments when they have needs like this.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Louisiana, Mr. 
Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I'd like to thank you and Ranking Member Cummings for your 
time and effort here on this flood. This is not something that 
is just relegated to Louisiana. This, unfortunately, is a flood 
disaster that is going to have repercussions around the country 
on many folks if we allow this type of incompetence to 
continue. This is not the first flood, yet in many instances, 
it appears that some of the reactions to this makes it look 
like this is the first disaster we've ever seen as a country, 
and it's awful.
    Mr. Fenton, I'm not sure what--Administrator Fenton, I'm 
not sure what grade you give FEMA. I've ridden out disasters 
with you all before. The performance I've seen here is one of 
the worst, unfortunately, one of the worst I've ever seen, and 
I think it absolutely has exacerbated the impact on the flood 
victims.
    Specifically, when you look at what happened after the 
flood, community members came together, and, I mean, literally, 
I watched people give their shirts off their backs because 
people had just wet clothes, because they came out in a boat or 
whatever else, literally took the shirt off their back, 
literally took food out of their freezer, literally housed 
strangers in their homes, businesses, churches, elsewhere. This 
disaster would have been so much worse if it were not for the 
amazing people that came together to rescue one another and to 
help one another recover. And, unfortunately, when FEMA came 
in, we saw an abrupt halting of that progress and restoration 
following this flood. And, unfortunately, that's continuing 
today.
    Let me go back and clarify a few things. Governor, you and 
I, I think, are on different pages in regard to the timing on 
some of this stuff, and I want to make sure we get that sorted 
out. I looked on your website, and I see where on--let's see. 
It looks like your first post in regard to the flood is on 
August 12, and it looks like GOHSEP's first post on the flood 
is on August 19. No. Excuse me. August 16, which was, again, in 
both cases, after the flood.
    Number two, there were about 20 watches, warnings, and 
other things posted by the National Weather Service prior to 
the flood in regard to--in regard to the warnings that the 
flood was coming. I actually got so frustrated, that I spent 
over an hour sitting in my office going through all the river 
reports and everything that were out there, and while there was 
a lapse between when I sent the email and it actually got 
posted up on our Facebook, I was warning people that this was 
going to far exceed the 1983 flood and that folks needed to 
evacuate or be prepared for those flooding conditions. And this 
was before the flood, obviously. And so there was ample 
information out there.
    But a few things. Now, the contractor that you're hiring 
right now, that contractor is going to be responsible for 
financial controls and procurement and disbursing money and 
things along that line. Is that accurate?
    Governor Edwards. On the----
    Mr. Graves. The contract. You're going through a 
solicitation process right now.
    Governor Edwards. The CDBG.
    Mr. Graves. Yes, sir. I'm sorry.
    Governor Edwards. Yeah. I'm sorry. And by the way, I don't 
believe I ever said there were no forecasts of heavy rains. 
There was nothing on the order of magnitude of 30 inches that 
were forecast. In fact, the best we could tell, it was--10 
inches was the most that they had forecast came in ahead of 
time.
    Mr. Graves. I don't remember the exact inches that they 
predicted, but they clearly predicted it was going to be beyond 
the 1983 flood, and so I just--but we can move on from there.
    So answer me, on the CDBG contract, am I correct in that 
financial controls, procurement, disbursing of funds and things 
along those lines?
    Governor Edwards. We were--the contractor--the process 
we're under right now is to select a program manager. Yes, sir.
    Mr. Graves. And under the solicitation that I saw, it 
appears they're responsible for financial controls.
    Governor Edwards. Yes.
    Mr. Graves. Okay. Because I just wanted to make note that, 
in the Federal Register notice that was published on November 
21, it actually says that the grantee has to submit 
certification documentation providing the basis that the 
grantee has sufficient financial controls and procurement 
process, and established adequate procedures to prevent 
duplication of benefits and things along those lines. So the 
fact that a contractor is not in place now does potentially 
impede some of that progress.
    Number two, when we met on August 19, I suggested to you 
then that you go ahead and hire a program management contractor 
and you begin collecting data from flood victims and others, so 
we're ready with this implementation plan. I further suggested 
that you review the Federal Register notice from both the South 
Carolina flood and the West Virginia flood. I might have 
mentioned a third one, but I know I mentioned those two floods, 
because I expected that there would be little to no difference 
between the Federal Register notice that was published on 
November 21 and the previous notices that were published 
several months before our flood. And in reality, in looking at 
the notices, that's the case. They're virtually no differences; 
just very minor differences that wouldn't have had any impact 
on an action plan.
    And as a matter of fact, you stated earlier that it was 17 
days after that plan, but as I recall, I think you actually 
submitted your action plan on January 3 for the November 21 
notice. And also I want to make note that the funds were 
actually appropriated, I think it was around September 30. It 
was the end of September.
    And so if you had simply hired a contractor back in August, 
if you had--if you had collected the information, if you had 
reviewed the previous Federal Register notices, you could have 
submitted a plan even before this November 21 deadline because 
every place in here--you can see the several highlights in 
here--every place in here, it actually says that the 
certification documentation submitted within 60 days of this 
effective date of notice or when the grantee submission of its 
action plan, whichever is earlier, and so clearly that could 
have happened before.
    And then the other thing, you keep saying that the--that 
the State is in no way delaying the execution of these funds or 
disbursement of these funds to flood victims. There's not a 
contractor in place. There's not a mechanism to disburse funds.
    Governor, look, you and I represent the same people. And I 
was very concerned on Friday when you suggested that I was 
doing this for politics. We represent the same people, 
Governor. And I'm going around meeting with these people, who 
are literally living in tents, living in uninsulated homes, 
don't have their businesses opened up. Livingston Parrish has 
an article in the paper talking about the number of people that 
aren't reapplying for business licenses. I don't have any 
desire other than to get people back in their homes, and I'm 
simply venting that frustration from them.
    Do you care to respond?
    Governor Edwards. I'm happy--I'm certainly happy to 
respond. First of all, the submission of the State action plan 
for the first $438 million appropriation was historically fast. 
And we can look and say, ``You could have possibly done this.'' 
The fact of the matter is it was historically fast.
    The second submission was even faster and, in fact, fast 
enough that the grant agreement included both of those 
appropriations, but that money is still not yet available. The 
money became obligated yesterday, Congressman----
    Mr. Graves. Governor, you had Mr. Cartwright earlier cite 
the February 14 letter. This approved the first $438 million. 
If a contractor was in place, the funds could have been 
distributed based on the $438 million. The State made----
    Governor Edwards. That is not true, Congressman. That is 
not true. You cannot distribute money before you have it. We 
don't have it because the grant agreement----
    Mr. Graves. Because you submitted an amendment and told 
them to combine the December and September appropriations, 
which delayed it, Governor.
    Governor Edwards. Which is also not true. We didn't tell 
anybody to combine it. We were asked by HUD to combine the two. 
Once we got the second action plan submitted so quickly as an 
amendment to the first one, they believed it made sense to 
combine the two. We said we're okay doing that but not if the 
first appropriation is delayed, but by speeding up the 
availability of the second appropriation, which is exactly what 
happened. That first appropriation, under the original 
timeline, wasn't going to be available until sometime in May. 
We executed the grant agreement on it this past Friday. It also 
includes the second appropriation. So now we have the $1.6 
billion available all at one time, which is going to be very 
helpful to address one of your earlier concerns that I share 
about low to moderate income and the percentage of homeowners 
that we're going to be able to help beyond that category.
    But it's historically fast. The money is not yet available. 
There is nothing we could have done before today that would 
have made the money available to put into homeowners' homes in 
terms of repairs before the line of credit is established.
    Mr. Graves. Governor, it says, ``whichever is earlier.'' It 
says it all over the notice, ``whichever is earlier.'' You 
didn't have to wait for this. You could have based it upon the 
previous Federal Register notices, which I suggested to you 
back in August. And to say that the funds were not delayed as a 
result of the decision to combine, that's just not true. It's 
not. The notice is here. You would have had a line of credit 
for $438 million that you could have begun distributing. 
There's not a contract in place, and there's still not one in 
place. And when the line of credit's ultimately available, 
you're not going to have a contractor in place or a 
disbursement mechanism in place to get the money out the door.
    Governor Edwards. Well, first of all, I don't know that we 
know that yet because it isn't established. And it could happen 
at any time, as I understand, over the next week or 2 weeks, 
potentially 3 weeks, but----
    Mr. Graves. But you don't have a contractor.
    Governor Edwards. But there is nothing that we could have 
done that would have made that money available any faster.
    Chairman Chaffetz. Congressman Cummings.
    Mr. Cummings. Yes. Thanks.
    Governor, I just want to--sorry we're going back and forth 
here. I have just one question. As I'm listening to you, it 
sounds like what you're saying is that you did everything you 
could to get the money as fast as you could, and the 
combination allowed you to do that. Is that right?
    Governor Edwards. Well, it does. And the other thing that I 
would like to point out again, the other State grantees that 
were appropriated money in September have not submitted their 
first action plan. We've actually submitted two. And the second 
appropriation was then consolidated with the first one in terms 
of that grant agreement so that we executed the grant agreement 
last Friday. HUD executed it yesterday, and so, for the first 
time, the money is actually obligated.
    But if you look at the normal timeline associated with 
this, Congressman Cummings, that first appropriation would not 
have been available in a line of credit until sometime in May.
    Mr. Cummings. Okay.
    Governor Edwards. We're going to beat that deadline, and at 
the same time, we will have the full $1.6 billion, not just the 
first $438 million.
    Mr. Cummings. Thank you.
    Chairman Chaffetz. I'll now recognize myself.
    Governor, to say that this is historically fast, I mean, 
come on. It's April. This thing happened in August of last 
year. If you have documentation from HUD suggesting that you do 
something--to combine or that something that would slow this 
down or--please provide that to this committee.
    I think it's a combination of failure at the State level, 
but I think there's also a lot of failure at the Federal 
Government level, and I want to try to--and I know Mr. Cummings 
and others feel this way too. This is--as Congressman Graves 
was talking about, this is not the first time these things have 
happened.
    Mr. Fenton, Congress appropriates how much money to you on 
an annual basis? Just an annual appropriation.
    Mr. Fenton. Including DRF and--so just for the Disaster 
Relief Fund, I think it's $7 billion, $8 billion a year, just 
the Disaster Relief Fund, and then plus we have money for flood 
insurance, which is mostly through the policies, and then 
another couple billion on top of that. So----
    Chairman Chaffetz. So you're about $15 billion?
    Mr. Fenton. Yeah, about $15 billion when you add it all up, 
all the different----
    Chairman Chaffetz. And I got the tell you: $15 billion a 
year to do what? Be ready if there's a disaster. Were you ready 
for this one?
    Mr. Fenton. Well, we always can do better. And I think 
you've pointed out a number of areas where we can do better. I 
think what happens in the bigger events, in the large--these 
large events, whether it be this event in Louisiana or Katrina, 
that it maximizes our capability and the throughput that we 
have. So, when our throughput for mobile homes is about--I 
think, on average, the best I saw was about 41 a day--it 
doesn't meet the huge numbers when you have 4,500 people, 
ultimately, that needed mobile homes.
    Chairman Chaffetz. Okay. So let's put that chart back up on 
the mobile housing units. This event, we have this chart. I 
mean, those numbers don't ramp up until the end of the year. 
And they don't even get close to what we need until February.
    Mr. Fenton. So our focus immediately is to put people in 
rental properties, if available, into hotels, and then start to 
determine--and we're also working the TSA program with the 
shelter--the STEP program with the Governor. And so we're 
getting people into safe, habitable locations outside the 
shelters, and then we start working through those individuals 
to determine their requirements, and at the same time start----
    Chairman Chaffetz. If you think--if you think you can do, 
you said, I think, 41 a day?
    Mr. Fenton. Forty-one a day with the infrastructure all 
being intact: power, water, sewer----
    Chairman Chaffetz. In perfect conditions. I mean----
    Mr. Fenton. So 41 a day is what we got up to. Right? It 
takes some time----
    Chairman Chaffetz. It took you, like, 6 months to get to 
that point.
    Mr. Fenton. It takes some time to get the infrastructure 
and resources there in order to meet that level.
    Chairman Chaffetz. You can take down the graphic.
    If we paid you nothing, and we just said, ``Hey, Louisiana, 
here's a bunch of money; go help fight this disaster,'' Mr. 
Harrell, what do you think would have happened?
    Mr. Harrell. Quite honestly, I probably would have failed 
miserably, but at least it would have been me failing instead 
of pointing fingers at someone else. I would have liked to have 
the opportunity to do that, any day of the week, because I feel 
like I failed the people of Livingston Parish on this disaster, 
and that's strictly due to the inability of FEMA to work as a 
team. And I'm going to go back and throw something else in. If 
you'll look at your National Response Framework, if you look at 
your NIMS management system, it all says that we work as a team 
at the lowest possible level. It's not a team approach when it 
comes to FEMA. So, yes, give me a block grant; let me handle my 
people.
    Chairman Chaffetz. You know, that's what's sad about this, 
is there are a lot of good men and women serving in all of the 
organizations. You go talk to the person who is down there on 
the ground in Louisiana, trying to do things, working for FEMA; 
I think their hearts are in the right place.
    But I don't think any of you could look at this and assess 
it as a B-plus, or highly successful, anything other than a 
total and utter failure from top to bottom.
    We're not serving the people that--they pay the taxes. They 
do what they're supposed to do, and they're on the receiving 
end of something that is so devastating, it is--you can't even 
fathom. I don't understand and nor should we ever tolerate such 
a lack of response.
    I want to read--this is, again, it's an internal FEMA 
document. This document--and the print is like 2 font here. But 
this is January 2017. This is regarding CB&I. It says: ``For 
the month of December 2016, the report indicates that the 
contractor received 1,980 maintenance calls. The contractor 
only completed 198 of those. Thus, 90 percent were not 
complete.''
    And, Mr. Boone, you come here and tell us you were highly 
successful. I just don't understand the disconnect. It's not 
even close.
    Let me read another. This is the long term. That was just 
for the short term. Long term: ``Repeat caller complaints that 
go without maintenance attention are numerous.'' Then it says 
there are 1,655 out of 4,793 issues not completed, which is 
only a completion rate of 35 percent. It's not as if we haven't 
ponied up the money. You're getting big contracts, but I don't 
understand, Mr. Boone, how you're not aware of this.
    And, Mr. Fenton, if you're not aware of this, who is?
    Mr. Fenton. Upon coming into this job January 20, I went 
down there, and I asked those questions. At that time when I 
was down there in February----
    Chairman Chaffetz. When did you--how long have you been 
with FEMA?
    Mr. Fenton. I have been with FEMA 20 year, sir.
    Chairman Chaffetz. What was your job before this?
    Mr. Fenton. I was the Regional Administrator for the West 
Coast and still am.
    Chairman Chaffetz. And still you don't have--because you 
are acting?
    Mr. Fenton. I'm the Acting Administrator right now, but----
    Chairman Chaffetz. Sorry. Keep going. Keep going.
    Mr. Fenton. So I'm the--I've been with FEMA 20 years: 13 
years in Region IX; 6 years in D.C.; went back there for the 
last 2 years as now the Regional Administrator. I got sent here 
to be the Acting Administrator starting January 20. I've been 
here since January 20 as Acting Administrator, sir.
    Chairman Chaffetz. I tell you: You've got your hands full 
because we've seen this movie before, and we've seen it in 
Louisiana, and we've failed again. The Federal Government fell 
on its face, and the State didn't do much to help either. As 
I'm telling you, to not be prepared in April for a contract to 
start putting stuff out the door, I just can't even imagine 
what these people are dealing with in terms--let's go to 
Congressman Johnson. He's also joining us from Louisiana.
    Congressman, you are now recognized for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    It really was an epic failure, Federal and State 
government.
    I take issue with what you said, Mr. Harrell. I don't think 
it was your failure. I think it was at higher levels.
    And, you know, the sad thing about it is, in Louisiana, we 
do recovery really well because we have so much experience with 
it. I mean, sadly, as you know, just in your administration, 
Governor, there's been a series of tragedies and disasters, but 
the reason we do recovery well in Louisiana is not because of 
the Federal or State government; it's because of our people, 
because they are very resourceful. They're survivors. 
Communities work together. Neighbors ban together. Citizens go 
into action. They know what to do. They take care of one 
another, often in spite of the government, not because of it.
    Governor, in January, you described the Shelter at Home 
Program as being very successful. And there's been a lot of 
discussion about this today, and you gentlemen have taken some 
heat.
    Is it--do you still stand by that statement? Do you still 
say that our Shelter at Home is a model that's very successful?
    Governor Edwards. I believe that it served its purpose by 
and large, and it's successful in the sense that in--I think it 
was a little over 3 months, the Shelter at Home Program was 
stood up, and, actually, 10,000 homes in just a little over 3 
months actually received those repairs to make their homes 
safe, habitable, and secure so people can go back home. That 
was the only option we had then. It's--and, by the way, if a 
similar disaster hits us today, it's the only option we have 
today because you don't have the TSA available in terms of 
motels and hotels. The rental assistance isn't available 
because you don't have the units there, the capacity. And MHUs 
are too slow coming and actually cost too much. But if you look 
at the fact that 3,000 families were in hotels, we paid $46 
million for that, and we did--actually, got 11,000 homes done 
under Shelter at Home. And the most important thing was those 
individuals were able to stay in their communities where they 
live and work so that businesses had employees and customers; 
schools had students and teachers; churches had parishioners on 
Sunday.
    And so, given the concerns that we have, I would say that 
it was largely successful. Certainly not perfect. We would much 
rather have engaged in much better repairs in terms of not 
being limited to temporary repairs, for example.
    Mr. Johnson. Well, and part of the purpose of this exercise 
is so that we can all learn by the mistakes and make 
improvements so, Heaven forbid, something of this scale happens 
again, we can do it better.
    So, you know, I'm not--I don't know that everybody agrees 
with the assessment, Governor, and I'm basing this in part on 
this past December, you know, the State surveyed over 2,000 
people that were involved, about a fifth of the homeowners that 
were using the Shelter at Home Program. And The Advocate had a 
report that said 46 percent of them, almost half, said they 
would not return home at that point, and they were citing 
shoddy repairs and questionable living conditions.
    So, I mean, I know that there's been some improvements 
since that time, but, still, I think we've got a real 
perception problem, and I'm not sure how to overcome that.
    There's also numerous reports of infamous overbilling for 
services and products and even charges for work that was never 
done. I know all of you are aware of that.
    My question is--and my real concern always--is about good 
stewardship of taxpayer dollars and wise use of that and 
eliminating fraud, waste, and abuse. So, apparently, there's a 
lot of fraud involved in this.
    What happens if the State receives a complaint about fraud 
of that magnitude, you know, for example, billing for charges 
that were never provided, services?
    Governor Edwards. Well, at that point in time, if the State 
receives that information, we would call in AECOM, find out the 
specific contractor that engaged in the repairs on that 
particular home, a look at the scope of work that was 
authorized, the scope of work that was done, and the 
inspection, the final inspection, to see if it matched up and 
if the work was truly performed.
    Mr. Johnson. How many outstanding cases of fraud against 
the Shelter at Home Program are being investigated now? Do you 
know?
    Governor Edwards. As far as we know, there are no 
outstanding allegations of fraud against the--the client--the 
program. And I think the total number of complaints was in the 
neighborhood of 300 out of 11,000. And those complaints weren't 
about fraud, necessarily. Those were individuals who wanted a 
scope of work that was greater than what was performed. Some of 
it had to do with the workmanship, and a lot of times those 
were conflated because people don't like the temporary nature 
of the repairs that were made in many cases.
    Mr. Johnson. I'm out of time, but just one last question 
for FEMA.
    Mr. Fenton, does FEMA provide direct oversight of the 
Shelter at Home Program or the State equivalence thereof? I 
mean, how does that--what does that look like in terms of 
oversight?
    Mr. Fenton. It's a grant through the State. We've worked 
with them on the implementation plan and the checks and 
balances within that. They talked to New York, got their 
lessons learned from New York. We've looked at some past IG 
audits on some of their recommendations, and the program is 
running again as a pilot for the second time in Louisiana.
    We provide a grant through our public assistance program. 
So, eventually, there will be a project worksheet for this 
through cost sharing, and we provided oversight of those 
dollars going down to the State and ensure that they're doing 
the work.
    Mr. Johnson. This is the last question, and I'm just going 
to ask you, for the record today--I'm sure this goes without 
saying--but we have your absolute commitment that you're going 
to improve these programs and make this better for the next 
round, right?
    Mr. Fenton. Well, definitely, 110 percent, sir. I've 
already started, since coming on in January 20, the housing. 
Some of that I talked about in my opening statement. I've 
reached out to MIT and Lincoln Labs to get them, the academic 
community, to take a look at what we're doing and give us, 
maybe, an outside look at what we could do better. And we're 
going to do a--we're going to invite industry in for Industry 
Day because there's a much--there's multiple different 
capabilities we could bring to the table. If we could find 
something that's more agile, faster, but as safe, we will look 
to do that.
    Right now, the MHU, just because of the size, trying to put 
it on individual lots represents a lot of challenges with 
degraded infrastructure. And so it slows us down in being able 
to meet the numbers that happen in this event.
    So we need to go back to something that is more agile but 
still safe. When we were in Katrina, we were using travel 
trailers. And while they were more agile and faster, the safety 
was a concern. So we need to find something in the middle that 
meets the requirement during these big events, and we're 
looking to make those improvements.
    Mr. Johnson. Let's do it quickly. Thank you.
    Mr. Fenton. Yes, sir.
    Mr. Grothman. [Presiding.] Thank you.
    We'll go to the ranking minority member, Congressman 
Cummings.
    Mr. Cummings. Thank you.
    Mr. Fenton, after Mr. Wilson's death, FEMA raised serious 
concerns that CB&I was understaffed and disorganized. Senior 
FEMA staff warned that CB&I failed to complete 90 percent of 
its maintenance calls in the month of December. The contractor 
failed to show up for 40 percent of the scheduled monthly 
maintenance visits. FEMA characterized CB&I's performance 
during this period as, quote, ``error prone and incomplete,'' 
end of quote.
    Sir, can you please describe the concerns that FEMA had 
with CB&I?
    Mr. Fenton. Sir, since coming on January 20t and in my 
meeting in February down at the joint field office, I asked a 
number of questions because of concerns I've heard with regard 
to the contract. There was a number of discussions that go on 
in operations between individuals with regard to concerns, 
emails that you guys have. Ultimately, it warranted a letter of 
concern that we wrote to CB&I from our contractor to put in 
writing those issues.
    Since that letter of concern, I'm told, when I went down to 
visit, that they have stepped up and that times have 
significantly decreased. And last night, when I had discussion 
with our contractor again and asked the questions, they were 
pretty--they were--said that the relationship and the level of 
work have increased the level, and everything is satisfactory 
at this point.
    Mr. Cummings. So, Mr. Boone, how do you respond to the 
problems, the failures of your company? There were some 
failures. Wouldn't you agree?
    Admiral Boone. Those----
    Mr. Cummings. The whole--okay. Go ahead.
    Admiral Boone. Those issues that have been raised are new 
to me. So, obviously, I need to sort through that and 
understand the context of those issues.
    If there are failures, we'll fix them. I think, as Mr. 
Fenton has articulated, there was a letter of concern never 
officially given to us. So it was slid across the table from 
the contracting officer and shared in a brief moment with our 
project manager. We aggressively addressed those concerns and 
have performed, to our knowledge, in a very highly successful 
way.
    Mr. Cummings. All right. Well, let me just cite this very 
quickly, and then we'll be ending the hearing very shortly.
    On January 17, 2017, one of the residents in a manufactured 
housing unit wrote to FEMA about a serious plumbing issue that 
she had been trying to get resolved for a month. When she 
called CB&I's maintenance line, she found that, and I quote, 
``it basically is a help line--a help desk ticket center with 
no calls back,'' end of quote.
    She was so frustrated with CB&I's lack of response that her 
husband rented a drain camera to prove that the sewer pipe had 
burst and sent the pictures of the damaged pipe to CB&I. After 
several more days of waiting, CB&I finally dispatched a 
contractor to the unit.
    She explained that the subcontractor, and I quote, 
``assessed it, looked at our video, wrote up the paperwork,'' 
end quote, but then the technician left without fixing the 
problem.
    Mr. Boone, why didn't your company fix the problem? Is that 
unusual?
    Admiral Boone. No. We address those problems. So, again, 
this is news to me, and I'll dig into it. But we have a 
reputation of doing prompt and responsive work. So, obviously, 
if this allegation is true, we have to get to the bottom of it.
    Mr. Cummings. All right.
    Thank you very much.
    Chairman Chaffetz. [Presiding.] I recognize the gentleman 
from Wisconsin, Mr. Grothman.
    Mr. Grothman. Yeah, Mr. Fenton, I'm going to kind of go 
over some territory that was covered before. I had another 
hearing at the time.
    Each manufactured housing unit that you purchased cost 
around $140 grand to install and maintain, correct?
    Mr. Fenton. The full wraparound cost to put a manufactured 
housing unit on an individual's property is $129 is what I'm 
told, $149 if we have to put it on a different lot. That 
includes the purchase of the unit, the hauling to the location, 
the installation cost, and then eventually the deactivation.
    Mr. Grothman. And some people would buy these on their own?
    Mr. Fenton. Some people may buy them on their own. We, in 
FEMA, buy them direct from six manufacturers.
    Mr. Grothman. Okay. So you got a good deal, well, as you 
could buy them in bulk?
    Mr. Fenton. We're buying units that are from HUD regulated 
plants. We're buying units that have extra retrofitting as far 
as the frame. We put a fire suppression system in them and do a 
lot of things above and beyond the normal models.
    Mr. Grothman. Right. Right. Right. But, presumably, because 
you're buying lots rather than if I just walked up and say I 
wanted one, you're getting a better deal than somebody would 
wind up if they just bought one of these, correct?
    Mr. Fenton. I would think so. I think time plays into that. 
You know, we're buying a lot of units in a very short duration, 
and--and--so we're--but there's time and then there's the 
number that we're buying.
    Mr. Grothman. Okay. My notes here say that you turn around, 
and after spending $140, $145 grand for these, you turn around 
and sell for them $11 grand. Is that accurate?
    Mr. Fenton. We are required to, if they--if it's not cost 
effective to bring them back to our location, they can't be 
retrofitted, then we go through the GSA excess property. By 
statute, we're required to put it through there, and they sell 
those units. And $11,000 is what I'm told that some of those 
units fetch.
    Mr. Grothman. Does that hit you as unusual?
    Mr. Fenton. As far as?
    Mr. Grothman. Odd? I mean, I would think that if you buy 
something for $140 grand or $130 grand and, you know, 2 years 
later you sell it for $11 grand, I would think that somebody 
really screwed up. Do you have----
    Mr. Fenton. Well, the unit itself is $60,000 and, then it's 
been used now for some period of time. So you have to make 
repairs to the unit, which is some sort of--which is some cost, 
and then you've got to go ahead and move the unit back and 
store it. So we take into account the cost to restore it back 
to predisaster condition, the cost to move it, the cost to go 
ahead and mothball it and sustain it versus the cost to sell it 
onsite. And if it's more cost effective to sell it onsite, 
we're going to choose that option versus exceeding that cost by 
doing all the--three things that I said and doing more cost to 
go ahead and move it back to a location, especially if it's not 
usable again.
    Mr. Grothman. Okay.
    Mr. Fenton. And many of these are not usable after 18 
months and after the travel that they've done already.
    Mr. Grothman. You paid $140,000 a year for something that's 
not usable after 16 months?
    Mr. Fenton. $60,000 for the unit. The rest of the cost is 
moving it. The rest of the cost is installation of that, the 
water, sewer, gas hookups, and deactivation.
    Mr. Grothman. Even $60,000. You mean, a year and a half 
after you buy something for $60,000, it has been so ripped 
apart that it's worth $10,000? And recently, staff here found 
one listed on your auction site--or GSA's auction site--for 
$2,500 bucks. Doesn't that--can you explain why the dramatic 
decline in value for something that I would think should be 
good for 30 or 40 years?
    Mr. Fenton. All I know is that usually the long distances 
they travel impact the frame of the unit. The use of it 
underneath the conditions that we put them in impact that. And 
so, therefore, we put them out on the fair market to get as 
much as GSA can get for those units.
    Mr. Grothman. How many--usually one family lives in these 
things?
    Mr. Fenton. Yes, one family usually.
    Mr. Grothman. Well, I'll tell you this: If I was in this 
situation like this and I needed housing for 2 years or 
something, I would think if you'd--you rent an apartment 
almost, I would think--you know, maybe not in Washington, D.C., 
obviously, but other places, you can get a fairly good 
apartment for under $10,000 a year. Wouldn't it be more cost 
effective if somebody is in a situation, say, for year and a 
half, we are just giving you a check for $12,000, and you find 
housing?
    Mr. Fenton. We do provide rental assistance to them at the 
fair market rental rate.
    Mr. Grothman. I mean across the board. Rather than say, I'm 
going to spend $150 grand for something I'm going to sell in a 
year and a half for $10 grand--about, maybe $140 and $12, or 
whatever--why don't we just across the board just say, ``Here, 
family, here's a check for $15,000; you find an apartment''?
    Mr. Fenton. I think we should look at many options to do 
that. The case, though, is that if you want the individual to 
stay within that community, and you want to re-establish that 
community, if there's no resources available in that community 
because we are providing rental assistance, we are providing 
hotel assistance, and the reason why we're going to 
manufactured homes is because there are--those other two 
options are either not available or the individual wants to be 
back to their home to make repairs.
    So giving some of the grant is an option. We're glad to 
look at that and discuss that as an option, but I'm not sure it 
takes care of the issue.
    Mr. Grothman. Well, my time is up. I'm just saying, you 
know, wherever I am today, I find people that are driving the 
half hour or 50 minutes to work. But thanks.
    Chairman Chaffetz. I recognize Mr. Graves for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman.
    I just want to follow up on a few things.
    One, Mr. Fenton, I--look, you inherited this mess. I know 
that you've been out West and that you came in and, certainly, 
there's been a lot of frustration aimed at you. But I know that 
you weren't responsible for these decisions, and I just wanted 
to make that clear. I know that you came in an acting role 
after this, and a lot of the frustrations we had during the 
peak of the flood were not your responsibility. Unfortunately, 
the committee did invite Mr. Fugate to come testify at the last 
hearing, and he did not come, and I just wanted to distinguish 
that fact.
    But one thing I want to reiterate, you cannot allow for 
this type--these types of failures to continue in future 
disasters, in this one and in future disasters. We are 
revictimizing disaster victims; it's not okay.
    Number two, we're fleecing taxpayers. The cost of these 
trailers, whenever local trailers dealers--Mr. Fenton, one 
thing I wanted to point out, Jason Ard, the Livingston Parish 
sheriff, came to us and said, for $35,000, if I remember 
correctly, per trailer, they can set up a trailer park for his 
deputies, because they needed stability; he needed law 
enforcement. I called the Secretary. I called the Deputy 
Secretary. I tried Mr. Fugate several times; never heard back 
from him. Had conference calls with a deputy and with the 
Secretary about this, and repeatedly, they rejected it. In 
turn, they instead paid $150 grand per trailer. Right now 
Sheriff Yarborough I think is selling back some of those 
trailers. Again, my number is ballpark, about $25,000 or a net 
payment from FEMA or for the sheriff's office for $10,000. 
Y'all are refusing to reimburse him. So you're opting to spend 
$150,000 instead of $10,000. How do you go stand up in front of 
taxpayers with a $20 trillion debt and defend those decisions?
    Governor, I want to clarify or just make a statement on 
Shelter at Home. I commend you for Shelter at Home. I tweeted 
that day and said that that is an innovative approach, and I 
like it because it helps get people back into their homes, 
their communities, helps restore the tax base. And I know, Mr. 
Harrell, President Layton Ricks, and I know we have we also 
have the chairman of our Homeland Security Committee in the 
senate, Bodi White, and the chairman of the Education 
Committee, Senator Blade Morrish, and Representative Miguez 
here. I know all these people care about people getting back 
and restoring the community and the tax base and everything 
back in their homes. I commend you.
    But I also said the execution, it was going to be based on 
execution. I think execution was a failure. You and I have 
talked about the word ``temporary'' in the Stafford Act. We've 
got to work with FEMA to change that. Because I think--once I 
saw the parameters, it was absurd, and it just didn't make 
sense. So--to move forward.
    And what happened is we preempted, we prevented these flood 
victims by having other housing options by doing Shelter at 
Home in many cases. And that's unfortunate. People told me over 
and over again, they couldn't get responses from contractors; 
the work was substandard; and had they known what it would have 
been like, they never would have opted for that.
    Lastly, I've got a number of documents. I'm not going to go 
back and forth with you here on arguing what the timelines are 
and everything else. So what I'm going to do, is, Mr. Chairman, 
I've got documents from HUD. I've got documents from the 
Governor. I've got the Federal Register notice. I'm going 
submit these for the record. The documents speak for 
themselves, very clear in this case. And I ask unanimous 
consent that those be included in the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Graves. And at the end of the day--and it doesn't 
matter, you know, again, Mr. Harrell, Mr. Boone, Mr. Fenton, 
Governor--this whole thing is about people. It's about people. 
And the decisions that you have to make at the end of the day, 
you need to be thinking about those where you can stand up in 
front of people and defend the decisions that are being made. 
And what ends up happening is that the line of decisions are 
absolutely decisions that can't be defended.
    I think about it all the time: I've got to defend this at a 
townhall meeting, standing up at a townhall meeting and 
defending it to constituents. And a lot of these decisions 
simply can't be defended, whether it's the amount of time it's 
taken from a September appropriation that's not going to get 
out the door until probably May, or it's trailers that have 
taken 6 months to get to people after this flood, or it's the 
fleecing of taxpayers. It's absolutely unacceptable, and you 
can't defend these actions.
    And so people can say that this manual, this regulation, 
whatever, those things--in the wake of a disaster, in the peak 
of a disaster, you've got to do what's right. And over and over 
again, I remember being in disasters, being in Unified Command 
in the State of Louisiana, in some cases, you've got to say, 
``I'm going to do what's right versus what this manual says,'' 
because no two disasters are the same; manuals in some cases 
and regulations can't anticipate the unique conditions. And 
FEMA gets so wrapped around the actual--watching the 
inefficiencies there was infuriating, and, unfortunately, in 
many cases, they are continuing on, and these people are being 
revictimized.
    And so, for the tens and thousands people that are still 
displaced--tens of thousands that are still displaced today--we 
need to do a better job getting them back into their 
communities, and we need to make sure that none of this ever 
happens again.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize Mr. Cummings.
    Mr. Cummings. I just want to submit a letter for the 
record. Mr. Cartwright referred to this letter, dated February 
14, 2017, from the U.S. Department of Housing and Urban 
Development, the one complimenting the Governor. I wanted to--
--
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. That's all.
    Chairman Chaffetz. The gentleman yields back.
    As we close here, I want to thank you all for being here 
and participating.
    I think what Mr. Graves pointed out is a very good summary 
of the problem and the situation that we have. I really do 
commend the Livingston Parish sheriff, who took care of his 
deputies, you know.
    And you've got to take a good hard look, Mr. Fenton, 
because here's the sheriff, whose got to take care of his 
deputies, because he knows if he takes care of his deputies, 
his deputies can help take care of other people. Somehow, some 
way, he went out and bought things at $35,000 apiece. And you, 
FEMA, are buying them at 150,000 and taking 6 months to do it. 
Something dramatically wrong there.
    Mr. Fenton. Yes, sir.
    Chairman Chaffetz. Mr. Harrell, I want to give you the last 
word here. You live there. You deal with this. You put your 
heart and soul into this, I know. What are the closing 
comments, things you want all of us to hear? And then we'll 
close this hearing.
    Mr. Harrell. Two words: FEMA reform. It's that simple. But 
don't do it in Washington. Don't do it at the regional level. 
Get it down to the State. Get it down to the local level. Let 
us have input. We don't have it. We try to follow the guidance 
that FEMA puts out on every document they have. We do it; FEMA 
does not do it. That's all I'm asking: FEMA reform. It's that 
simple.
    I'd like to play a part in it. I think a lot of our 
emergency managers across the country would like to play a part 
in it. That's my goal.
    Chairman Chaffetz. We hear you. Thank you. I appreciate you 
doing that.
    And for the men and women who suffered through that and 
responded and helped their neighbors, God bless you.
    Again, thank you for this hearing. It's been very 
productive. The committee stands adjourned.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record



                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-910 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      

                                 [all]
                                 
                                 
</pre></body></html>
